<html>
<title> - H.R. 5, THE EQUALITY ACT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                         H.R. 5, THE EQUALITY ACT

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2019

                               __________

                           Serial No. 116-13

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         


        Available http://judiciary.house.gov or www.govinfo.gov
        
        
        
        
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
41-175             WASHINGTON : 2021        
 
 
        
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                
                            C O N T E N T S

                              ----------                              

                             APRIL 2, 2019
                           OPENING STATEMENTS

                                                                   Page
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................     3

                               WITNESSES

Sunu Chandy, Legal Director, National Women's Law Center
  Oral Testimony.................................................     7
  Prepared Testimony.............................................    10
The Reverend Dr. Dennis Wiley, Pastor Emeritus, Covenant Baptist 
  United Church of Christ
  Oral Testimony.................................................    31
  Prepared Testimony.............................................    33
Carter Brown, Founder and Executive Director, Black Transmen, 
  Inc.
  Oral Testimony.................................................    36
  Prepared Testimony.............................................    38
Julia Beck, Former Law and Policy Co-Chair, Baltimore City's 
  LGBTQ Commission
  Oral Testimony.................................................    41
  Prepared Testimony.............................................    43
Doriane Lambelet Coleman, Professor of Law, Duke Law School
  Oral Testimony.................................................    48
  Prepared Testimony.............................................    50
Jami Contreras, Michigan Resident
  Oral Testimony.................................................    55
  Prepared Testimony.............................................    57
Tia Silas, Vice President and Global Chief Diversity and 
  Inclusion Officer, IBM Corporation
  Oral Testimony.................................................    60
  Prepared Testimony.............................................    62
Kenji Yoshino, Chief Justice Earl Warren Professor of 
  Constitutional Law, New York University School of Law
  Oral Testimony.................................................    74
  Prepared Testimony.............................................    77

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Item for the record submitted by The Honorable David Cicilline, 
  Committee on the Judiciary.....................................   100
Items for the record submitted by The Honorable Louie Gohmert, 
  Committee on the Judiciary.....................................   106
Items for the record submitted by The Honorable Jerrold Nadler, 
  Chairman, Committee on the Judiciary...........................   114
Item for the record submitted by The Honorable David Cicilline, 
  Committee on the Judiciary.....................................   147
Item for the record submitted by The Honorable Jerrold Nadler, 
  Chairman, Committee on the Judiciary...........................   153
Items for the record submitted by The Honorable Tom McClintock, 
  Committee on the Judiciary.....................................   157
Item for the record submitted by The Honorable Greg Stanton, 
  Committee on the Judiciary.....................................   176
Item for the record submitted by The Honorable Debbie Mucarsel-
  Powell, Committee on the Judiciary.............................   183
Items for the record submitted by The Honorable Sheila Jackson 
  Lee, Committee on the Judiciary................................   188
Items for the record submitted by The Honorable David Cicilline, 
  Committee on the Judiciary.....................................   214

                                APPENDIX

Responses to questions for the record submitted by Doriane 
  Lambelet Coleman...............................................   219
Responses to questions for the record submitted by Kenji Yoshino.   221
Items for the record submitted by Mr. Nadler, Chairman, Committee 
  on the Judiciary...............................................   223


                        H.R. 5, THE EQUALITY ACT

                              ----------                              


                         TUESDAY, APRIL 2, 2019

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The committee met, pursuant to call, at 10:00 a.m., in Room 
2141, Rayburn House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Johnson of Georgia, Deutch, Bass, Jeffries, Cicilline, Lieu, 
Raskin, Jayapal, Demings, Scanlon, Garcia, Neguse, McBath, 
Stanton, Dean, Mucarsel-Powell, Collins, Chabot, Gohmert, Buck, 
Ratcliffe, Gaetz, Johnson of Louisiana, Biggs, McClintock, 
Lesko, Reschenthaler, Cline, and Steube.
    Staff Present: David Greengrass, Senior Counsel; John Doty, 
Senior Adviser; Lisette Morton, Director of Policy, Planning, 
and Member Services; Madeline Strasser, Chief Clerk; Moh 
Sharma, Member Services and Outreach Adviser; Susan Jensen, 
Parliamentarian and Senior Counsel; Will Emmons, Professional 
Staff Member; Brendan Belair, Minority Staff Director; Bobby 
Parmiter, Minority Deputy Staff Director and Chief Counsel; Jon 
Ferro, Minority Parliamentarian and General Counsel; Paul 
Taylor, Minority Chief Counsel for Constitution Subcommittee; 
and Erica Barker, Minority Chief Clerk.
    Chairman Nadler. The Judiciary Committee will come to 
order.
    Without objection, the chair is authorized to declare 
recesses of the committee at any time.
    We welcome everyone to today's hearing on H.R. 5, the 
Equality Act. I will now recognize myself for an opening 
statement.
    Nearly 50 years after the Stonewall uprising, there is 
still no Federal law that explicitly prohibits millions of 
lesbian, gay, bisexual, or transgender Americans from being 
denied medical care, being fired from their jobs, or thrown out 
of their homes simply because of who they are. It is time 
Congress changes that.
    Today, the Judiciary considers H.R. 5, the Equality Act. 
This is long overdue legislation that will explicitly prohibit 
discrimination against LGBT and gender nonconforming Americans 
and will strengthen nondiscrimination protections for women and 
others. Today's hearing also affords us the opportunity to hear 
about the enduring nature and extent of continuing 
discrimination faced by LGBT people in various aspects of 
American life.
    In 2015, as part of its decision in Obergefell v. Hodges, 
which recognized the fundamental right of same-sex couples to 
marry, the Supreme Court held, ``The Constitution promises 
liberty to all within its reach, a liberty that includes 
certain specific rights that allow persons within a lawful 
realm to define and express their identity.''
    The Equality Act will help protect and defend that liberty 
for LGBT individuals, women, and others. At this moment, we 
have an opportunity to continue our march towards justice, to 
enshrine in our Nation's laws protections from marginalized 
communities, to ensure that they can fully participate in key 
areas of life, and to provide them recourse in the face of 
discrimination.
    The act will do so by amending our existing statutes, 
namely the Civil Rights Act of 1964, the Fair Housing Act, the 
Equal Credit Opportunity Act, the Jury Selection and Services 
Act, and several laws regarding employment with the Federal 
Government by either adding sex, including sexual orientation 
and gender identity, as a protected characteristic, or, where 
sex is already included as a protected characteristic, by 
explicitly clarifying that sex discrimination includes 
discrimination on the basis of sexual orientation or gender 
identity.
    It will also expand the Civil Rights Act of 1964 to clarify 
the definition of public accommodations and to ensure that a 
broader range of establishments, including retail stores and 
services such as banking, are included for all classes. All 
forms of discrimination are tied together, and we must address 
them together.
    If a black lesbian couple is denied housing they are 
otherwise qualified for, it is nearly impossible to tell if 
they were turned away because of their race, their gender, or 
their sexual orientation. It is time we make clear that none of 
these are acceptable forms of discrimination.
    We have already seen the effectiveness of nondiscrimination 
provisions on the Federal level, and we have seen how sexual 
orientation and gender identity protections work in the more 
than 20 States that have them on the books. There is no reason 
discrimination that is explicitly illegal in one part of the 
country should not be explicitly illegal in all parts of the 
country.
    The Equality Act builds on these existing protections and 
provides clear recourse for millions of people, no matter where 
they live. The Equality Act takes special care to maintain the 
careful balance long established between individual liberties 
and our compelling interest in promoting nondiscrimination. 
Freedom of religion is a fundamental American value, and we do 
not have to choose between nondiscrimination and religious 
liberty. We have in our existing civil rights laws a road map 
on how to advance both.
    Religion is no excuse for discrimination as we have long 
recognized when it comes to race, color, religion, sex, and 
national origin, and it should not be when it comes to sexual 
orientation or gender identity. Many of the arguments against 
the Equality Act are belied by the experience of the States and 
localities that have protections already.
    The scaremongering about potential bathroom predators has 
not turned out to be true. Protecting the ability for a 
transgender person to use a facility consistent with their 
gender identity has not weakened public safety or criminal laws 
or undermined their enforcement.
    Similarly, protections for sexual orientation and gender 
identity will not force religious hospitals or nonprofits to 
close. New York has these protections. We have Catholic, 
Jewish, and Protestant hospitals and adoption agencies. And 
everyone, regardless of who they are or whom they love, is able 
to receive medically appropriate care and to be served by 
publicly funded organizations.
    Many States have sexual orientation and gender identity 
nondiscrimination laws, and all of them still have women's 
sports. Arguments about transgender athletes participating in 
sports in accordance with their gender identity having 
competitive advantages have not been borne out.
    Sports have positive impacts on physical, social, and 
emotional well-being, and we should not be denying transgender 
athletes those opportunities simply because sometimes they may 
win. Nor should their occasional success be used as a roadblock 
to advancing civil rights legislation for LGBT people as a 
whole.
    While we are examining the specific provisions of this 
legislation, the true question before us is much broader and 
goes to the heart of the country we want this to be. Much of 
the history of the United States has been expanding the 
definition of who is understood to be included when the 
Declaration of Independence says ``All men are created equal.'' 
When these words were first written, that phrase did not 
include black and Latino men. It did not include Native 
Americans. It certainly did not include women, and it did not 
include LGBT individuals.
    But we have, as a nation, aspired to expand the definition 
and ensure that regardless of race, creed, ethnicity, or sex, 
everyone is able to participate fully in the American way of 
life. Each advance has been hard fought, whether in Congress, 
in the courts, or through regulations, or even in a civil war. 
And it has happened over the objections of people who argued 
that we were taking away their freedom to discriminate.
    But as a nation, we have long held that we cannot sit by 
and be tolerant of intolerance that is designed to demean and 
to exclude communities. That is why I am a proud cosponsor of 
the Equality Act.
    Before I end, I want to take a moment to directly address 
many of those watching today's hearing who are undoubtedly 
about to hear their humanity and their right to exist 
questioned. To the transgender and nonconforming youth, teens, 
and adults who are about to hear their right to participate in 
sports and to be themselves in school, work, and in their daily 
lives challenged; to the same-sex couples who are about to hear 
suggestions that they just take their business elsewhere, that 
they adopt children elsewhere, that they exist elsewhere, we 
see you. We support you. And we believe in you.
    If you are feeling unsafe, afraid, or at risk, please reach 
out for help. You are worth fighting for, and we are here to 
fight alongside you, which is why we will be passing this bill.
    I want to thank the gentleman from Rhode Island, Mr. 
Cicilline, for introducing this important legislation, and I 
look forward to hearing from all of our witnesses.
    It is now my pleasure to recognize the ranking member of 
the Judiciary Committee, the gentleman from Georgia, Mr. 
Collins, for his opening statement.
    Mr. Collins. Thank you, Mr. Chairman.
    And I look forward today to the really incredibly weighty 
issue that we do have here in this hearing today, but I also 
want to note because not just from Republican circles or 
others, the humanitarian security crisis still at our Southern 
border rages on, and we have done nothing to address the danger 
to the migrant children and to the American citizens.
    This is not just coming from me. This is from the 
Washington Post. This is from the New York Times and others. So 
I do look forward to us getting to that as we go forward, just 
as we are getting to this incredibly, you know, weighty issue 
today as we go forward.
    Everyone here can agree there is much suffering in our 
world. Today, we have the opportunity and obligation to listen 
to people with different perspectives on how to address equity. 
As we do that, we stand on the shoulders of the civil rights 
heroes who fought before like us. Like two of my colleagues 
here, I am from the Atlanta area, and I have watched over my 
lifetime as our country has recognized and responded to the 
disadvantages historically borne by racial minorities and 
women.
    We are not here today to betray the Civil Rights Act, but 
to uphold its ideals. There is no doubt in my mind that men, 
women, and children who expand their gender dysphoria suffer 
deeply. Unfortunately, the legislation we are considering would 
harm countless people who understand themselves to be 
transgender and would demolish the hard-won rights of women, 
putting them once again at the mercy of any biological man who 
identifies at that any moment as a woman.
    The biological differences between the sexes remain 
scientific and certain. Men are physically stronger and faster 
than women, which has made it necessary for women to access 
clear legal protection. When any man can enter into a protected 
space, his status in identifying as a woman, as noted by 
Women's Liberation Front leader, R.R. 5 nullifies women and 
girls as a coherent legal category worthy of civil rights 
protection. The bill privileges the rights of men who identify 
as women over biological women and girls.
    Consider female sports. Last year, two male athletes won 
the top two spots in Connecticut girls Class S indoor track 
meet. Female athlete Selina Soule, who finished eighth, missed 
an opportunity to compete in front of college coaches by two 
places. In Selina's words, ``We all know the outcome of the 
race before it even starts. It is demoralizing.''
    Allowing men to compete against women in women's sports 
isn't demoralizing because female athletes Selina aren't 
talented. It is demoralizing because it makes their talent 
irrelevant.
    Martina Navratilova explained the threat of H.R. 5 poses to 
women's sports. ``Unless you want to completely remake what 
women's sports means, there can be no blanket inclusion rule. 
There is nothing stereotypical about this. It is about 
fairness, and it is about science.''
    In fact, H.R. 5 ignores fairness and denies science in 
order to codify stereotypes and sexism. If a man who adopts the 
mannerisms associated with women can receive every Federal 
protection afforded to women, we have reduced womanhood to a 
set of stereotypes, the same stereotypes some men chronically 
exploited for social, professional, and political advantage.
    H.R. 5 plays into these things that hurt women and girls 
across every dimension of our society, and it would give these 
stereotypes the trump card whenever tensions arise between the 
rights of a transgender person and the rights of a biological 
woman.
    The damage H.R. 5 would inflict on vulnerable Americans 
isn't limited to women. Administering chemotherapy to a 
healthy, cancer-free patient is malpractice, but H.R. 5 could 
compel doctors to prescribe hormones and perform major 
surgeries on adolescents based on their gender identity rather 
than the biological gender or medical condition.
    Under this bill, adolescents who can't decide what major to 
pursue in college would be empowered to force doctors bound by 
anti-discrimination laws to administer hormones that could 
render these children sterile and conduct irreversible 
surgeries. Mothers and fathers who have watched their children 
deteriorate physically and emotionally as they transition away 
from their biological sex are begging Congress to listen before 
we leap.
    Don't ignore the costs here because they are steep. H.R. 5 
erases civil rights protection for biological women. It sets 
the stage for children to fall victim in permanent and 
unprecedented ways to the confusion that often characterizes 
adolescence.
    If the Democrats are determined to move this legislation 
forward anyway, we must acknowledge it automatically privileges 
the rights of biological men over the rights of biological 
women. This bill will cause suffering that is far-reaching and, 
in many cases, enduring.
    Though the women and children have historically been 
uniquely vulnerable, Democrats are condemning people who 
advocate for their rights and against H.R. 5 as bigoted. The 
ideology-driven H.R. 5 is content to see women, lesbians, and 
families become the collateral damage of identity politics with 
no basis in science.
    So I would ask my friends across the aisle not to peddle 
that notion under H.R. 5 everybody wins. There will be many 
losers because H.R. 5 bows to the political expediency that 
silence calls for for fairness, flouts science, and has no 
compassion for the women and children it marginalizes.
    And as an ending to my chairman's comment, there is nobody 
in this world should be mistreated for how they see themselves 
or how they portray themselves. I believe that that is a gift 
that is inherently from God and is a spark of life that is put 
in there not by any man or woman, or anybody created is by the 
one that creates.
    Understanding that, we can have differences. We can 
understand things differently. We can understand when it comes 
to the law, how laws affect some and hurt others. That is not 
being mean-spirited. That is not being hurtful. That is just 
being honest.
    And they can have discussions today, and we plan on having 
those discussions. And I appreciate everybody's perspective 
that is going to be here. But to challenge the motive of what 
my disagreement may be as to people that I don't even know and 
that I could come to love and care is wrong.
    For me, this is about looking at a bill and saying what is 
right or wrong about this bill. And when we understand that, we 
can have bigger discussions as we go forward. That is where you 
have true conversations of love. That is where you have true 
conversations of compassion. And we can disagree on that, but 
talk about a bill that inherently does have bad effects 
intended with it.
    As we go forward, I look forward to the discussion. I look 
forward to our side and both sides having this discussion, and 
I appreciate the chairman's time.
    And with that, I yield back.
    Chairman Nadler. I thank the gentleman.
    I will now introduce today's witnesses. Sunu Chandy--I hope 
I pronounced that right. Sunu Chandy is the legal director for 
the National Women's Law Center. She earned a Bachelor of Arts 
degree from Earlham College, a law degree from Northeastern 
University School of Law, and a Master of Fine Arts from Queens 
College.
    The Reverend Doctor Dennis Wiley is pastor emeritus of the 
Covenant Baptist United Church of Christ. He earned a Bachelor 
of Arts from Harvard, a Master of Divinity from Howard 
University, and both a Master of Philosophy and a Ph.D. from 
Union Theological Seminary.
    Carter Brown is the founder and executive director of Black 
Transmen, Inc., a nonprofit organization dedicated to 
empowering African-American transgender men. Prior to serving 
in this role, he worked in real estate and mortgage banking for 
over 10 years.
    Julia Beck is a member of the Women's Liberation Front and 
the former law and policy co-chair of Baltimore City's LGBTQ 
Commission. She earned her Bachelor of Science degree from 
Towson University.
    Doriane Lambelet Coleman is professor of law at Duke Law 
School. She earned a Bachelor of Arts from Cornell and a law 
degree from Georgetown University Law Center.
    Jami Contreras is a supervisor at an auto finance company 
in Michigan. She and her wife encountered difficulty obtaining 
medical care for their newborn child because of their sexual 
orientation.
    Tia Silas--did I pronounce that right? Tia Silas is vice 
president and global chief diversity and inclusion officer at 
IBM. She earned a Bachelor of Science degree from Cornell 
University and an MBA from NYU Stern School of Business.
    Kenji Yoshino is the Chief Justice Earl Warren Professor of 
Constitutional Law at NYU, that is New York University, School 
of Law. He earned a Bachelor of Arts from Harvard University, 
was a Rhodes Scholar at Oxford University, and earned a law 
degree from Yale Law School.
    We welcome all of our distinguished witnesses and thank 
them for participating in today's hearing.
    Now if you would please rise, I will begin by swearing you 
in. Please raise your right hands.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    [Response.]
    Chairman Nadler. Thank you. Let the record reflect the 
witnesses all answered in the affirmative. You may be seated.
    Please note that each of your written statements will be 
entered into the record in its entirety. Accordingly, I ask 
that you summarize your testimony in 5 minutes. To help you 
stay within that time, there is a timing light on your table. 
When the light switches from green to yellow, you have 1 minute 
to conclude your testimony. When the light turns red, it 
signals the 5 minutes have expired.
    Ms. Chandy, you may begin.

 TESTIMONIES OF SUNU CHANDY, LEGAL DIRECTOR, NATIONAL WOMEN'S 
  LAW CENTER; DENNIS WILEY, PASTOR EMERITUS, COVENANT BAPTIST 
 UNITED CHURCH OF CHRIST; CARTER BROWN, FOUNDER AND EXECUTIVE 
  DIRECTOR, BLACK TRANSMEN, INC.; JULIA BECK, FORMER LAW AND 
  POLICY CO-CHAIR, BALTIMORE CITY'S LGBTQ COMMISSION; DORIANE 
   LAMBELET COLEMAN, PROFESSOR OF LAW, DUKE LAW SCHOOL; JAMI 
  CONTRERAS, MICHIGAN RESIDENT; TIA SILAS, VICE PRESIDENT AND 
GLOBAL CHIEF DIVERSITY AND INCLUSIONS OFFICER, IBM CORPORATION; 
   AND KENJI YOSHINO, CHIEF JUSTICE EARL WARREN PROFESSOR OF 
                       CONSTITUTIONAL LAW

                    TESTIMONY OF SUNU CHANDY

    Ms. Chandy. Good morning. Chair Nadler, Ranking Member 
Collins, and members of the Judiciary Committee, thank you for 
the opportunity to provide testimony in support of H.R. 5, the 
Equality Act.
    My name is Sunu Chandy. I am the legal director of the 
National Women's Law Center.
    The center has worked for more than 45 years to advance 
women's equality and to remove barriers created by sex 
discrimination. Before joining the center, I served in senior 
leadership roles at Federal and local civil rights agencies. 
And for 15 years before that, I was a civil rights litigator. I 
have been active with LGBTQ organizations, including currently 
as a board member with the Transgender Law Center and in the 
past as a leader with South Asian LGBTQ organizations.
    A few years ago, when my daughter's first grade classmate 
said to her on the playground, ``But wait, you can't have two 
moms,'' I am so proud that my daughter went to the principal 
and got her from the side to help explain that, yes, in fact, 
she can.
    We are urging Congress to pass the Equality Act so that all 
kids can have legal protections, no matter their family 
structure. But as with any bill that seeks to amend existing 
civil rights laws, the Equality Act must be enacted in a way 
that expands and never retreats from our commitment to existing 
civil rights protections.
    Support of the Equality Act is key to the National Women's 
Law Center's mission and critical for our collective liberation 
against sex discrimination, as outlined here. First, the 
Equality Act would provide explicit protections for LGBTQ 
people in employment, housing, credit, education, public spaces 
and services, federally funded programs, and jury service.
    The U.S. Supreme Court has long recognized that 
discriminating against someone because she does not conform to 
gender stereotypes is sex discrimination. The Equality Act 
would make these protections for LGBTQ individuals explicit in 
Federal statutory law.
    Second, the act would ensure that all women, including 
LGBTQ individuals, would gain protections against sex 
discrimination in public spaces. This means individuals, 
including those who are pregnant, who experience sex 
discrimination, including sex harassment, while in spaces such 
as restaurants or stores would have a legal remedy through the 
Equality Act.
    Third, the act would ensure that individuals gain new 
protections against sex discrimination by entities that take 
Federal dollars--schools, community centers, homeless shelters. 
The Equality Act would prohibit sex discrimination in these 
spaces.
    Finally, the act ensures additional protections in public 
spaces, that they extend to all relevant entities. People of 
color continue to face discrimination regularly in stores or 
when seeking taxis. The Equality Act would prohibit this kind 
of discrimination.
    The act protects freedom of religion also through existing 
thoughtful exemptions contained within the Federal civil rights 
statutes that protect religious actors from Government 
intrusion.
    For example, the current laws exempt private entities that 
are not open to the public. Churches can hold services, 
spaghetti dinners, and limit their entry to their members. The 
current law allows religious entities to limit employment to 
members of their own faith, and they require religious 
accommodations for employees.
    The current law also provide that religious entities are 
exempt from fair housing laws if they're being--using a 
dwelling for a noncommercial purpose or in small buildings 
where the owner lives on the premises.
    In addition to maintaining all these religious exemptions, 
the Equality Act clarifies that the Religious Freedom 
Restoration Act cannot be misused to allow violations of 
Federal civil rights laws. This does not eliminate RFRA but 
limits its reach, so it can't be used to defend against civil 
rights claims.
    The Equality Act represents a significant advancement for 
all women and girls, and I want to be clear. The National 
Women's Law Center supports the act's requirement that 
transgender women and girls be included with other women and 
girls in gender-specific spaces, including in sports programs.
    Our country has a history of attempting to justify sex 
discrimination by asserting that it is protecting women. Just 
as this rationale fell short when excluding women from 
opportunities, it does not work now. The National Women's Law 
Center has represented women and girls seeking athletic 
opportunities, equal employment, and protection from sexual 
violence for decades, and this includes women and girls who are 
transgender. We are firmly committed to advancing the Equality 
Act because it will advance opportunities for all women and 
girls.
    As a woman, a person of color, and a parent in a two mommy 
family, I need the Equality Act. And as the daughter of a 
Christian minister and school teacher, immigrants from a small 
village in Kerala, India, it has been quite a journey towards 
family acceptance. Gaining explicit Federal law protections 
provides not only legal rights, but an increased measure of 
dignity.
    Over decades, through the courage of individuals coming 
forward with claims of discrimination, we have collectively 
expanded the scope of civil rights protections as one tool in 
our work for justice. We urge Congress to pass the Equality 
Act.
    Thank you.
    [The statement of Ms. Chandy follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Chairman Nadler. Thank you.
    Reverend Brown--Reverend Wiley, rather. I am sorry.

           TESTIMONY OF REVEREND DOCTOR DENNIS WILEY

    Rev. Wiley. Good morning. My name is the Reverend Doctor 
Dennis W. Wiley, pastor emeritus of the Covenant Baptist United 
Church of Christ in Washington, D.C., which I pastored along 
with my wife, the Reverend Doctor Christine Y. Wiley, for 32 
years. I am a liberation theologian, a community activist, and 
a social justice advocate.
    As a religious leader, I am here today to express my full, 
unequivocal support of the Equality Act. My support is based on 
my religious upbringing, my personal experience, and the 
influence of prophetic trailblazers like the Reverend Doctor 
Martin Luther King Jr.
    In a speech titled ``The American Dream'' delivered at 
Lincoln University in 1961, King observed that while morality 
cannot be legislated, behavior can be regulated. In other 
words, according to King, ``It may be true that the law can't 
make a person love me, but it can keep that person from 
lynching me.''
    Born and raised in Winston-Salem, North Carolina, until the 
age of 14 during the 1950s and '60s, I never witnessed the 
horror of lynching, but I did experience the injustice of 
racial segregation. Because of the color of my skin, I lived in 
a segregated neighborhood, attended segregated schools, shopped 
at segregated stores, ate at segregated restaurants, drank from 
segregated water fountains, used segregated restrooms, rode 
segregated buses, and sat in the balcony of a segregated movie 
theater after entering the side door and climbing 14 flights of 
stairs.
    And while I was constantly surrounded by the love of 
family, neighbors, church members, teachers, and friends, I 
could not help but notice that there was a sharp line of 
division, primarily between the black world in which I lived 
and the white world to which I was exposed only through 
television and in the movies.
    And so to add insult to injury, courts and the public 
framed laws enforcing segregation and banning interracial 
marriage as morally sound and founded in Christian heritage. 
And so it was not until I moved to the Nation's capital in the 
same year that the 1964 Civil Rights Act was passed that I 
experienced white teachers, white classmates, and integrated 
public facilities for the very first time.
    And it was from that vantage point that my soul was able to 
look back and find solace in the slow and usually begrudging 
American evolution from a country in which systemic racism 
permeated our laws to one with comprehensive civil rights 
protections in employment, public accommodations, and at the 
ballot box.
    All too often the racist laws that reinforced racism were 
justified and maintained by arguments purportedly rooted in 
religion, and the same is true for laws that failed to protect 
our LGBTQ brothers and sisters from those who would condemn 
them for who they are and who they love.
    When my wife and I accepted the challenge to leave Covenant 
to become a beloved community that welcomes and affirms all, 
including LGBTQ persons, I was reminded that King once said, 
``Cowardice asked the question, `Is it safe?' Expediency asked 
the question, `Is it politic?' And vanity comes along and asks 
the question, `Is it popular? But conscience asked the 
question, `Is it right?' ''
    Well, we did what we did at Covenant not because it was 
safe, politic, or popular, but because we believed it was 
right. And I feel the same way today about supporting the 
Equality Act. As our LGBTQ brothers and sisters move around 
this Nation, they should never have to fear losing a job, being 
evicted from a house or apartment, refused service at a 
restaurant, denied approval for a loan, or rejected admission 
to a school because of their sexual orientation or gender 
identity.
    And so, in closing, I am reminded that a couple of years 
after we agreed to perform union ceremonies at our church, we 
went to New York to see our younger daughter act in a play 
toward the end of her second year at Julliard. Shortly after we 
arrived in the city, she stopped by our hotel room for a visit 
because she said she wanted to share something with us.
    It was then that she came out to us as a lesbian. We were 
shocked because we did not see this coming. However, I 
immediately got up, went over to her, gave her a big hug, and 
told her how much I love her. My wife was a little slower 
responding, not because she was disappointed or upset, but 
because being a mother, she was afraid of what danger our 
daughter might face.
    Well, I am happy to tell you today that my daughter, Samira 
Wiley, is doing just fine as a successful, Emmy Award-winning 
actress who is happily married to the love of her life, Lauren 
Morelli. Not every LGBTQ kid is as lucky as Samira. But when I 
told Samira that I would be giving this testimony today, she 
wanted me to be sure to tell you that if we, her parents, had 
not accepted her for who she is, she would not have the 
courage, the confidence, or the self-esteem to be not only a 
successful actress, but also a positive role model for other 
LGBTQ persons.
    So let us make sure that the Equality Act becomes law so 
that all of our beautiful, promising, gifted LGBTQ citizens 
just like my daughter and daughter-in-law can live their lives 
free of fear, free of bigotry, and free of discrimination.
    [The statement of Rev. Wiley follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Nadler. Thank you very much.
    Mr. Brown.

                   TESTIMONY OF CARTER BROWN

    Mr. Brown. My name is Carter Brown, and I am honored to 
submit this testimony in support of the Equality Act and in 
support of the millions of hard-working Americans whose 
livelihoods have been threatened by the lack of clear, 
permanent workplace protections.
    Each day, workers across the country are subject to anti-
LGBTQ discrimination and harassment that denies them the fair 
chance to earn a living. I know this because it happened to me.
    I once believed that I was the embodiment of the American 
dream. My early days were spent in a family that lived paycheck 
to paycheck, struggling to keep food on the table. I had even 
briefly experienced homelessness at the age of 14 while a 
student in high school. Determined to break the cycle of 
poverty, I fought hard to earn my diploma and was the first in 
my family to go to college.
    I learned I had a penchant for real estate and entered the 
field determined to be a success story. In the following years, 
I married my best friend, and we welcomed our daughter into the 
world. I felt a responsibility, as many new husbands and 
fathers do, to provide for my family. So I continued to work 
hard and established myself in my career. I earned 3 promotions 
in only 2 years, enabling me to purchase our first home.
    These visual markers of success were proof that the 
American dream had not eluded me, but that it was clutched 
firmly in my hand. And then one day, I arrived to work and 
discovered that a coworker had outed me as a transgender man. 
Everything around me shattered.
    In the months that followed, I was the subject of cruel 
office gossip and forced to endure invasive and defensive 
questioning from colleagues on the subject of my identity. When 
they weren't asking me to use other bathrooms or questioning me 
about my private life, my coworkers excluded me from work 
lunches and avoided me in the halls. I was suddenly isolated in 
a field where communication and teamwork was essential to doing 
my job.
    To my coworkers, being transgender eclipsed everything. I 
began to dread coming into work and often spent lunch breaks 
alone, crying in my car. I was fired shortly after, and despite 
my previous achievements and excellent work performance, my 
termination from work was lawful.
    In my home State of Texas, there are no explicit State 
statutes prohibiting discrimination on the basis of sexual 
orientation or gender identity. In fact, 30 States in total--
that is more than half of the country--have no statutory 
protections whatsoever for LGBTQ workers who do experience 
discrimination in the workplace.
    How can the American dream be realized when a majority of 
States have failed to extend equal access and equal opportunity 
to its citizens? My experience left me embarrassed and 
vulnerable. I was overwhelmed trying to cope with the crushing 
lack of financial security.
    As a result of being fired, I was forced to cash out my 
401K and defer auto loans and mortgage payments just to keep my 
family afloat. We lost our health insurance and had to depend 
on Medicaid to care for my daughter's special health needs. It 
would be an understatement to say that the loss of my job 
caused my family significant economic and emotional turmoil.
    And my experience is not uncommon. LGBTQ Americans 
rightfully fear being outed at work will cause them to lose 
their jobs, be passed over for promotions, or suffer lost 
wages. It should come as no surprise that more than half of 
LGBTQ workers hide their LGBTQ identity at work.
    The Equality Act is simple. It amends existing civil rights 
law to include sexual orientation and gender identity as 
protected characteristics to provide consistent and explicit 
nondiscrimination--I am sorry, explicit nondiscrimination 
protections for LGBTQ people across key areas of life.
    In addition to these changes, the Equality Act updates the 
Civil Rights Act to more fully reflect the way we live our 
lives today. This amendment to the Civil Rights Act simply 
modernizes protections that will not only protect me as a 
transgender man, but my family and many people who I love.
    Texas is one of the only five States in the country that 
has no State-level public accommodation statute. This means 
that my family can still be denied service at a store or by a 
public car service because of my race without any legal 
resource, for example.
    All Americans, regardless of sexual orientation or gender 
identity, need permanent and explicit nondiscrimination laws to 
protect them in the workplace. If the Equality Act had been in 
place during my employment, it would have been illegal for my 
employer to engage in harassment and fire me because I was 
transgender. My family would not have had to shoulder the 
burden of my loss of income and worry about my emotional 
health.
    I understand that not everyone shares my values, and I may 
never change their minds. But we can change the law. A person's 
sexual orientation or gender identity has nothing to do with 
their ability to do their job. But now because there are no 
clear Federal protections in place for LGBTQ workers, passing 
this historic piece of legislation has everything to do with 
our survival.
    Thank you.
    [The statement of Mr. Brown follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Nadler. Thank you.
    Ms. Beck.

                    TESTIMONY OF JULIA BECK

    Ms. Beck. Thank you to Chair Nadler, Vice Chair Scanlon, 
and Ranking Member Collins for welcoming my testimony in 
consideration of the Equality Act.
    If the act passes in its current form as H.R. 5, then every 
right that women have fought for will cease to exist. H.R. 5 is 
a human rights violation. Every person in this country will 
lose their right to single-sex sports, shelters, grants, and 
loans. The law will forbid ever distinguishing between women 
and men.
    To be clear, I do support the general goal of the Equality 
Act, to protect people on the basis of sex, a physical and 
immutable biological reality; to protect sexual orientation, 
which is based on biological sex. I object to the inclusion of 
gender identity. People who call themselves transgender, 
nonbinary, and everything in between still deserve the same 
basic human rights that we all do, but treating someone as if 
they are a member of the opposite sex is not a civil right. In 
fact, this violates the rights of others.
    People cannot change sex, no matter how many legal 
documents they alter. No matter how many dangerous surgeries 
they endure. This myth of changing sex has gained considerable 
traction not only because of the synonymous use of the words 
``sex'' and ``gender,'' but also because trans activism is 
extremely well funded, with billionaire donors and a very deep 
sea of lobbyists.
    Sex is a vital characteristic. Gender and identity are not. 
Sex can never be changed, but gender changes all the time. One 
hundred years ago, pink was a color for boys. Now pink is a 
girl's color. This is an example of gender, social expectations 
of appearance, and behavior.
    These expectations are based on sex stereotypes that 
prevent people from being their authentic selves. 
Unfortunately, gender identity forces people back into these 
stereotypical sex roles. This bill defines gender identity as 
``actual or perceived gender-related characteristics.'' This is 
a circular definition, a logical fallacy.
    There is no way to protect a person on the basis of their 
gender identity without a legitimate definition. Lawmakers 
across the country will have to consider which mannerisms, hair 
styles, occupations, and clothing choices make up one gender 
identity or another. How is this any different from the sex 
stereotypes women have been fighting to break free from? How is 
this not regressive?
    The concept of gender identity suggests that there is an 
essentially female personality or feeling that a person can 
have, but no such thing as a female body. Making gender 
identity the law will, in fact, mandate a belief in a female 
penis or female testes.
    The concept of--excuse me, deep down, deep down I believe 
that you have good intentions, but gender identity only does 
harm. Let me tell you what happens if H.R. 5 passes.
    Male rapists will go to women's prisons and will likely 
assault female inmates, as has already happened in the UK. 
Female survivors of rape will be unable to contest male 
presence in women's shelters. Men will dominate women's sports. 
Girls who would have taken first place will be denied 
scholastic opportunity. Women who use male pronouns to talk 
about men may be arrested, fined, and banned from social media 
platforms.
    Girls will stay home from school when they have their 
periods to avoid harassment by boys in mixed sex toilets. Girls 
and women will no longer have a right to ask for female medical 
staff or intimate care providers, including elderly or disabled 
women who are at serious risk of sexual abuse.
    Female security officers will no longer have the right to 
refuse to perform pat down or intimate searches of males who 
say they are female. And women undergoing security checks will 
no longer have the right to refuse having those searches 
performed by men claiming a feminine identity.
    For a good look at how lesbians are impacted by gender 
ideology and legislation, please read ``Lesbians at Ground 
Zero,'' a survey from the UK about the harassment of lesbians 
in clear spaces, which I request to be placed in the hearing 
record. Everything I just listed is already happening, and it 
is only going to get worse if gender identity is recognized in 
Federal law. The authors of this bill have done a lot of work 
to make it sound like gender identity is well understood and 
has been around for a long time. But it is a new concept that 
can only ever refer to stereotypes and unverifiable claims.
    The witnesses for the majority will talk about medical 
conditions and desperate unhappiness that everyone is surely 
sympathetic to, but this bill doesn't reference any medical 
condition. And unhappiness isn't a sex class, nor is it a 
reasonable category of civil rights protection. Everyone 
experiences unhappiness.
    So I would ask the Members to strike the gender identity 
provisions of this bill and instead consider protecting all 
forms of self-expression and loving relationships under 
stronger sex stereotype discrimination provisions. Sex 
stereotype nondiscrimination could equally cover both Rupaul 
and Caitlyn Jenner in their rights to housing and employment, 
but only if we accurately recognize everyone's biological sex.
    I thank the Republicans who invited me here, and I urge my 
fellow Democrats to wake up. Please acknowledge biological 
reality.
    Thank you for your time.
    [The statement of Ms. Beck follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Nadler. Thank you.
    Professor Coleman.

             TESTIMONY OF DORIANE LAMBELET COLEMAN

    Ms. Coleman. Good morning. Thank you for inviting me to 
testify today.
    My name is Doriane Coleman. I am a professor of law at Duke 
Law School, and I support equality.
    As Chairman Nadler noted, the legal history of our country 
is in part a chronology of efforts designed to give meaning and 
effect to the original commitment in 1776, ``All men are 
created equal.'' The work is ongoing for those of us who 
weren't originally meant to be its beneficiaries.
    As the milestones reflect, the lesson is that different 
groups experience inequality for different reasons at the hands 
of different people and in different ways so that tailoring an 
effective remedy requires attention to those differences. 
Although the Nation benefits as equality expands, in fact, only 
some of us needed the Emancipation Proclamation and Brown v. 
Board of Education. Only some of us need Title IX and the 
Violence Against Women Act.
    Approaches to equality that elide relevant differences are 
not only ineffective, they actually serve as cover for ongoing 
inequality. I have recently encountered advocacy that 
exemplifies this problem. The argument is that because some 
males identify as women, some women have testes. From this, it 
follows that sex and sex-linked traits can't be the grounds for 
distinctions on the basis of sex because this excludes women 
with testes. This leaves gender identity as the only legitimate 
basis for classifying someone into, for example, girls- and 
women-only spaces and opportunities.
    I support equality, including for the LGBTQ community, but 
I don't support the current version of H.R. 5 because I say 
this with--because, and I say this with enormous respect for 
everyone who is working on the bill, it elides sex, sexual 
orientation, and gender identity. It is all sex discrimination, 
and at least impliedly, we are all the same. In opting for what 
is in effect a sex-blind approach to sex discrimination law, 
the legislation would serve as cover for disparities on the 
basis of sex. Sex is not just a concept. Females have and 
continue to be treated differently precisely because of our 
reproductive biology and stereotypes about that biology. The 
legal fiction that females and women with testes are the same 
for all purposes will take us backward, not forward.
    I was asked to testify today because I have longed worked 
in the one area where this is most clear, Title IX and 
opportunities for girls and women in sport. Title IX, which 
requires schools to invest in male and female athletes equally, 
undoubtedly powers invaluable outcomes not only for the many 
individuals who are benefitted by its terms, but also for 
society in general.
    Those of us who are athletes know that separation on the 
basis of sex is necessary to achieve equality in this space. 
Among scientific experts, it is accepted beyond dispute that 
males and females are materially different with respect to the 
main physical attributes that contribute to athletic 
performance. They agree that the primary reason for sex 
differences in these attributes is exposure in gonadal males to 
much higher levels of testosterone during growth and 
development and throughout the athletic career.
    This literally builds the male body in the respects that 
matter for sport. The first figure in my statement shows what 
we mean by much higher levels of testosterone. The second 
demonstrates how sex differences in athletic performance emerge 
coinciding with the onset of puberty, and the third illustrates 
the effects of those differences, again starting in 
adolescence.
    The third marks the individual lifetime bests of three 
female Olympic champions in the 400 meters, including Team 
USA's Sanya Richards-Ross and Allyson Felix in the sea of male 
body performances run in a single year, 2017. It shows that the 
very best women in the world would lose to literally thousands 
of boys and men, including to thousands who would be considered 
second tier in the men's category.
    And because it only takes three male-bodied athletes to 
preclude the best females from the medal stand, it doesn't 
matter if only a handful turn out to be gender nonconforming. 
If U.S. law changes so that we can no longer distinguish 
females from women with testes for any purpose, we risk not 
knowing the next Sanya Richards-Ross or the next Allyson Felix. 
We risk losing the extraordinary value that comes from having 
women like Serena Williams, Aly Raisman, and Ibtihaj Muhammad 
in our lives and on the medal stand.
    If they bother to compete, they would be relegated to 
participants in the game. One prominent trans activist has said 
that we shouldn't be concerned that the victories would belong 
to trans girls and women going forward because what matters is 
their liberty to self-identify and their right to be treated 
equally throughout society. Others, including some in the Title 
IX advocacy community, have embraced this evolution, arguing 
that what we should care about is participation.
    These advocates are right to seek avenues for transgender 
inclusion. But listen carefully to the particular bargain they 
are willing to strike. In effect, it is that we don't need 
parity of competitive opportunity. They are wrong about this.
    Participation contributes to equality for females, but the 
real power of sport isn't in gym class. It is in teams, 
competitions, and victories. It is in the same numbers of 
athletic scholarships and of spots in finals and on podiums. It 
is in the fact that Brandi Chastain can win Worlds, celebrate 
like the guys, and get a whole generation of little girls to 
play soccer because she did.
    It is in the fact that Simone Manuel can win Olympic gold 
in the 100-meter free with millions watching on primetime 
television and from there can lead a generation of African-
American kids to the pool who didn't believe that swimming was 
for them.
    I encourage you to consider revisions to H.R. 5 that 
provide protections for sexual orientation and gender identity 
that don't risk these invaluable goods and that are otherwise 
thoughtful about the circumstances in which sex still matters.
    Thank you.
    [The statement of Ms. Coleman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Nadler.Thank you.
    Ms. Contreras.

                  TESTIMONY OF JAMI CONTRERAS

    Ms. Contreras. Thank you for taking the time to hear my 
family's story.
    Four and a half years ago, my 6-day-old daughter was denied 
medical services by our handpicked pediatrician. This was after 
we made very strategic and intentional decisions to do 
everything in our power to avoid this very act of 
discrimination from happening.
    You see, about 7 years ago, my wife, Krista, and I were 
living in my small hometown located in West Michigan. After 
deciding we were ready to start a family, we made the hard 
decision to pack up our lives and relocate 230 miles to the 
Metro Detroit area, hoping to ensure our future children would 
grow up in an accepting community free from discrimination.
    We ended up finding the perfect house, located in one of 
the most LGBTQ-friendly towns, which has a good school 
district, close-knit community, and above all, it is safe. Not 
long after we purchased our home, we found out my wife was 
pregnant with our first child. We were elated.
    Doing what any good parents would do, we started to 
research pediatricians. We asked for help on social media 
forums and obtained referrals from people we knew. My wife and 
I both made sure to attend every interview with potential 
pediatricians, making it very clear this was a two helicopter 
mom family.
    After several interviews, the search was over. We had found 
a pediatrician that met all of our requirements. She was 
personable, energetic, listened to our concerns, was able to 
talk through her medical philosophy and explain things in a way 
we could understand, and she didn't seem too concerned we were 
two moms.
    We left that meeting with her telling us just to call her 
office after the baby is born and set the appointment. Well, a 
few months later, our amazing baby girl, Bay Windsor Contreras, 
was born. We followed the doctor's orders, made our first 
appointment, and we were so excited for that appointment.
    As new parents, we were craving that reassurance that we 
were just doing everything right, and our baby was healthy and 
happy. When we arrived at the office, they escorted us in our 
room. We waited for our doctor, excited to show her off. But 
when a different doctor walked in the room, she introduced 
herself and then started in with the appointment.
    Krista and I, confused, had to stop the doctor to ask, ``I 
am sorry. Where is Dr. Roi?'' She proceeded to tell us Dr. Roi 
would not be seeing us, and she would be Bay's doctor today. 
When asked why, she stated Dr. Roi had prayed on it, and she 
decided she would not be able to take Bay on as a client.
    My stomach sank, my eyes filled with water, and the lump in 
my throat felt like a rock. I remember staring at my new baby, 
who was now being examined by a doctor we had never met, and 
all I could think was what have we done? How did we get here?
    We did everything within our power to avoid this very 
moment. We literally moved across State. We spent endless hours 
of research and interviews just to avoid this very situation. 
Yet here we were. It was our job to protect her, and there we 
were, only 6 days into the most important jobs of our lives, 
and we had already failed.
    While checking out, the receptionist asked if we wanted to 
make another appointment. We declined and stated we would not 
be back, to which she told us she understood, showing us full 
well she knew exactly what was going on before we even did.
    It was a somber ride home from that appointment. Krista 
rode in the back seat with Bay as I drove home fighting back 
tears. Instead of leaving that appointment with reassurance, we 
were left with nothing but fear and more questions. My mind was 
racing with a question that still haunts me to this day. What 
is next?
    Will we be asked to leave a restaurant, not allowed to sign 
her up for a soccer team? Will we be denied access to the 
school of our choice? Or worse, are we going to be refused help 
by an EMT?
    The only silver lining in our story is that she was 6 days 
old rather than 6 years old. So we luckily didn't have to try 
to find the words to explain to her what had just happened in 
that moment. However, she is now at an age where she is 
starting to ask questions. We have to explain why mommy and 
mama are sometimes on TV or have to take trips like this one.
    She impresses me with her ability to comprehend the concept 
of equality. She often responds with questions, such as ``Why, 
mama? It is okay to be different.'' Or what she said when I 
asked her if I should come here today. She said, ``You have to 
go, mama, because you can help all families, not just ours, 
feel safe.''
    When people ask us why we keep speaking up with the risk 
that comes with putting our family in the public eye, my wife 
and I know all too well, no amount of planning can avoid 
discrimination. We have to keep sharing our story to let people 
know this is happening to people like us and families like ours 
every day. And the only protection has to come from our 
Government.
    We need our Government to send the message that all 
Americans are equal. This is where you come in. We are calling 
on you to pass the Equality Act. Please help me show my 
daughter and my son that our family and all LGBTQ people have 
the right to feel safe in the communities they live.
    Thank you.
    [The statement of Ms. Contreras follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Nadler. Thank you.
    Ms. Silas.

                     TESTIMONY OF TIA SILAS

    Ms. Silas. Good morning, Chairman Nadler, Ranking Member 
Collins, and esteemed members of the committee.
    Thank you for inviting me to testify before you today. My 
name is Tia Silas, and I am the vice president, global chief 
diversity and inclusion officer for IBM. I am responsible for 
creating and implementing IBM's diversity and inclusion 
strategy in over 170 countries around the world, advocating for 
fairness and equality, which we believe to be core to 100 years 
of success.
    I am honored to speak at today's important hearing on the 
Equality Act to discuss IBM's longstanding and strong support 
for the legislation, as well as to provide the committee with 
an overview of IBM's proud history of inclusive LGBT+ policies.
    At the outset, I wish to highlight a March 7, 2019, letter 
of support for the Equality Act signed by IBM's chairman, 
president, and chief executive officer, Ms. Ginni Rometty, in 
her capacity as chairman of the Business Roundtable's Education 
and Workforce Committee and on behalf of all Business 
Roundtable members' companies and their 15 million employees. A 
copy of that letter has been submitted with my testimony.
    I would like to provide the committee with several reasons 
why the Equality Act's affirmative nondiscrimination 
protections for LGBT+ individuals across the areas of housing, 
public education, credit, public services and spaces, and jury 
service make good business and economic sense. IBM's core 
business objectives are to hire the best, most talented 
individuals regardless of their gender identity, sexual 
orientation, religion, or other personal characteristics .Let 
me outline why.
    Diversity of talent ensures differentiated innovation. In 
order to remain one of the leading companies in the world, we 
seek to recruit, hire, retain the best talent anywhere, 
irrespective of any singular factor of a person's identity. We 
value a workforce that reflects the diversity of society so 
that we can create solutions that are both relevant and 
revolutionary.
    We don't want our employees and their families to be 
limited in where they can safely and comfortably live and work. 
Employees must live without fear of their personal safety and 
security, regardless of where they reside. Without affirmative 
protections, employees may feel forced to be on guard so as to 
not inadvertently reveal their LGBT+ status. This creates 
stress and distracts individuals from being productive.
    Like other companies, IBM's business location and 
investment decision-making process factors in discrimination-
related legislation and policies. The United States already 
faces a shortage of qualified and experienced talent in key 
technology growth areas, such as artificial intelligence, block 
chain, quantum computing, cybersecurity, healthcare, and so 
much more. It is in the best interests of the country to ensure 
that all talented individuals have equal opportunity and are 
able to pursue careers in these and other critical fields.
    The Equality Act tracks State-level statutes that have 
already proven successful. But at the same time, we are 
extremely concerned about the patchwork of noncomprehensive 
protections. The inconsistency and multiplicity of statutes, 
both positive and negative, begs for a Federal minimum standard 
of basic protections that extend to all LGBT+ individuals 
nationwide.
    As IBM's chief diversity officer, I am fortunate to design 
and implement many inclusive policies, collaboration tools, and 
benefits to support IBM's LGBT+ communities, allies, and 
families. In my testimony, I articulate many proud moments in 
our history. However, in my time here today, I will highlight 
some of our current offerings.
    IBM offers transgender inclusive healthcare benefits. We 
have 52 LGBT+ employee resource and affinity groups around the 
world. We require all U.S. contractors to comply with 
nondiscrimination standards. We have launched employee and 
general public training and certification programs about LGBT+ 
inclusivity.
    We sponsor an LGBT+ executive council, which includes 
leadership from a senior vice president who reports directly to 
IBM's chairman, signifying IBM's top executive support for 
inclusion. IBM believes that fostering inclusive work 
environments goes beyond employment practices and protections. 
That is why we strongly support the Equality Act and the 
extension of protections it proposes across so many critical 
areas of society. Our country's future economic success depends 
on it.
    Thank you again for the opportunity to testify before you 
today. I look forward to answering your questions.
    [The statement of Ms. Silas follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairman Nadler. Thank you.
    Professor Yoshino.

                   TESTIMONY OF KENJI YOSHINO

    Mr. Yoshino. Chairman Nadler, Ranking Member Collins, and 
members of the committee, thank you for the opportunity to be 
with you here today.
    My name is Kenji Yoshino, and I am the Chief Justice Earl 
Warren Professor of Constitutional Law at New York University 
School of Law.
    This year marks the 50th year anniversary of the Stonewall 
Riots, which inaugurated the modern LGBT rights movement. 
Fittingly, the Supreme Court just last term stated, ``Our 
society has come to the recognition that gay persons and gay 
couples cannot be treated as social outcasts or as inferior in 
dignity and worth. For that reason, the laws and the 
Constitution can and in some instances must protect them in the 
exercise of their civil rights.''
    By passing the Equality Act, Congress will bring the Nation 
closer to realizing that promise. I will summarize six points 
about the act that I have made in my written testimony.
    First, the act is necessary. Despite the extraordinary 
strides that society has made in the past few decades, LGBT 
individuals continue to face broad forms of social and economic 
discrimination. Recent studies have shown that one in five 
lesbian, bisexual, and gay individuals and about one in three 
transgender individuals reported unfair treatment in employment 
decisions.
    In some 29 States, no law explicitly prohibits 
discrimination in employment, housing, or public accommodations 
on the basis of sexual orientation or gender identity.
    Second, Congress is authorized to pass the Equality Act 
under both the commerce clause of the United States 
Constitution and Section 5 of the Fourteenth Amendment. In 
1964, the Court found that Congress could use the commerce 
power to promulgate the landmark Civil Rights Act, which 
today's Equality Act both mirrors and extends.
    Further, Section 5 of the Fourteenth Amendment gives 
Congress the power to pass legislation to ensure all Americans 
the equal protection of our laws, as the Equality Act seeks to 
do.
    Third, the act represents an exemplary application of the 
principles of American federalism. More than 20 States have 
explicit laws against discrimination in employment and housing 
on the basis of sexual orientation or gender identity. As 
Justice Brandeis famously said, the States are laboratories of 
experimentation.We have seen these experiments succeed as 
millions of LGBT Americans have gained dignitary rights in 
their home States.
    Meanwhile, the risks that detractors threaten have not 
materialized. Studies have found no evidence that protecting 
transgender people from discrimination leads to any increase in 
safety incidents in gender-segregated bathrooms or locker 
rooms. Further, trans women athletes have not broadly displaced 
nor disadvantaged non-trans women and girls when allowed to 
compete in accordance with their gender identity.
    Fourth, a majority of Federal circuit courts nationwide 
have already interpreted Federal laws prohibiting sex 
discrimination to include discrimination based on gender 
identity and sexual orientation. By codifying this sound set of 
precedents, Congress would ensure that the applicability of 
Federal law does not depend on where an American resides.
    Fifth, the Equality Act advances civil equality for LGBT 
individuals while respecting religious freedom. The claim that 
the act compromises religious liberties ignores the existing 
exemptions in the civil rights laws that the Equality Act would 
amend, such as the exception the Fair Housing Act makes for 
religious organizations to prefer people of the same religion 
when selling or renting commercial space.
    This claim also scants the safeguards instilled in the free 
exercise clause of the United States Constitution. As cases 
ranging from the Lukumi Babalu Aye case to the Masterpiece 
Cakeshop case demonstrate, any misapplication predicated on 
religious animus would swiftly falter.
    Sixth, the act validly reaches conduct as well as status. 
Some have argued that sexual orientation and gender identity 
are distinguishable from protected classifications like race or 
sex because they are defined partly by conduct rather than by 
status alone. This distinction is unavailing.
    Civil rights protections in this Nation have never been 
limited to status alone. Neither religious conduct nor 
pregnancy are immutable characteristics, yet both are protected 
under Title VII.
    I will close with how I introduced myself as the Chief 
Justice Earl Warren Professor of Constitutional Law. When that 
title was offered to me by my then dean, I rejected it. I 
reminded him that I was of Japanese descent, and that, as 
Attorney General of California, Earl Warren superintended the 
internment of people of Japanese ancestry. In his wisdom, my 
dean responded that after he became Chief Justice of the United 
States Supreme Court, Earl Warren not only expressed regret for 
his role in the internment but was the author of our Nation's 
most honored civil rights opinion.
    What better title could I have than the name of someone who 
had traveled so far on issues of civil rights over the course 
of a single lifetime. So I now wear this title with pride, 
wondering in how many countries a racial minority could move so 
quickly from being outside the protection of the Constitution 
to holding a place of honor as a scholar and teacher of that 
hallowed document.
    I consider it a matter of grace that I can tell the same 
story in a different register. I am a gay man who was born the 
year of the Stonewall Riots. Because of judicial and 
legislative decisions like the one you are asked to make today, 
I married my husband 10 years ago, and together, we are raising 
a son and daughter.
    Despite all the forms of privilege we possess as a family, 
we still feel unsafe traveling to certain areas of this 
country. Even in our home State of New York, we have 
experienced acts of exclusion and bias. In those moments, I 
worry less about myself and more for my young children. As Dr. 
King did for his own 6-year-old daughter when she faced 
discrimination in a public accommodation, I fear seeing the 
``ominous clouds of inferiority begin to form in their little 
mental sky.''
    So it is no small matter you consider today. In the last 
half century, I have walked two versions of the American dream. 
That journey has led me to believe that the experience of 
discrimination on the basis of race on the one hand and 
discrimination on the basis of sexual orientation or gender 
identity on the other are not entirely different. And it has 
led me to believe the dignity the law can bestow in welcoming 
us into the light of the public sphere is entirely the same.
    Thank you.
    [The statement of Mr. Yoshino follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Nadler. Thank you. I thank the witnesses.
    We will now proceed under the 5-minute rule with questions. 
I will begin by recognizing myself for 5 minutes, and I have 
three questions for Ms. Chandy.
    Ms. Beck objects to the addition of gender identity as a 
protected characteristic in our civil rights laws because she 
believes that treating someone as if they are a member of the 
opposite sex is not a civil right. What is your response to 
that?
    Ms. Chandy. Yes. Listening to that testimony, it seems like 
that particular witness does not believe that transgender 
people exist, and personally I have sort of worked in a 
volunteer capacity over the last 25 years with LGBTQ 
organizations, and I just want to say that no one up here are 
doctors or scientists, so we are talking about our experience 
with people and how that fits into the law for today.
    And so I have met numerous transgender individuals who are 
trans women and girls who are women and girls. In terms of the 
biology piece, biology is made up by so many different things, 
as I understand it, not just external sex organs. There are 
hormones. There are internal things. And so all of these things 
make up a person. And so transgender women and girls are women 
and girls. Transgender boys and men are boys and men, as we 
have heard. So to basically have someone say that does not 
exist, and then to say that people will go so far as to make up 
an entire identity, change their pronouns, maybe engage in 
medical treatment to just simply invade sex-segregated spaces 
or participate in sports is so outlandish, it is so far-fetched 
when you think about the weight and seriousness that someone 
goes through before deciding that they need to be presenting a 
gender-affirming gender identity.
    So it just sort of--I hear it as offensive because it is 
sort of here--it sounds to me like someone is saying that a 
particular identity does not exist.
    I can also address the point about sex stereotyping. That 
is the very theory that the Supreme Court has used to cover 
both sexual orientation and gender identity. The Supreme Court 
has said how you present yourself, whether you present in a 
feminine or masculine way, all of those sorts of things are 
protected and you cannot discriminate based on those, and that 
is the theory that has led us to saying sexual orientation and 
gender identity are all part of sex discrimination, and that is 
not allowed to discriminate on any of those characteristics.
    Chairman Nadler. Thank you.
    In her written testimony, Ms. Beck lists a number of 
potential scenarios that could arise if Congress were to 
include protections against gender identity-based 
discrimination in the Equality Act, including ``men will 
dominate women's sports, and girls will stay home from school 
when they have their periods to avoid harassment by boys in 
mixed-sex toilets.'' What is your response?
    Ms. Chandy. There is no research to support the claim that 
allowing trans athletes to play on teams that fit their gender 
identity will create a competitive imbalance. Trans children 
display the same variation in size, strength, and athletic 
ability as other youth. And there are no reported instances of 
a boy pretending to be transgender or presenting as a girl to 
fraudulently join a sports team. There is just no example of 
this happening. And for this to be raised as the issue today, 
we are an organization that cares about women in sports. We can 
talk about women in sports: unequal pay; how women coaches are 
treated; resources given to women in sports. We can spend a lot 
of time talking about women in sports. The ``problem'' of 
transgender inclusion in sports is not the issue that is being 
raised.
    Chairman Nadler. Thank you. I have one more question on the 
same topic.
    Professor Coleman testifies that female athletes ``know 
that segregation on the basis of sex, or at least of sex linked 
to traits, is necessary to achieve equality in this space.'' 
And he also testifies--I am sorry, Professor Coleman. She 
testifies that because those born male are exposed to much 
higher levels of testosterone, they enjoy physical advantages 
in athletic performance, and not recognizing this difference 
will hinder women's opportunities in sports. Your response to 
those two----
    Ms. Chandy. I would just say that half of the country, we 
have state and local laws that protect on the basis of gender, 
sexual orientation, and gender identity. And as the professor 
described, this has been going on in half of the country, and 
it is not as if sports has been sort of--women's sports has 
been overcome with transgender athletes winning every race.
    Even in the example that was given in Connecticut, which is 
the only one I am hearing, those people went on to the 
Nationals, and one did not participate, and one came in like 
30th or 31st. So this idea that transgender inclusion is going 
to mean that transgender individuals are going to win in all of 
the sports is simply not true. We have heard no data to say 
that that is true, and these are just fears and myths and 
stereotypes, which is not a way that we can make law.
    Chairman Nadler. And finally, given that many courts have 
interpreted Title 7 and other civil rights statutes to already 
prohibit discrimination on the basis of sexual orientation or 
gender identity, why do we need to amend existing statutes to 
provide such protection?
    Ms. Chandy. Okay. So, right now, the circuit courts are 
sort of deciding, and there has been a growing consensus among 
Federal courts that the existing prohibition on sex 
discrimination also prohibits discrimination based on sexual 
orientation or gender identity. But that depends on the court 
that is looking at it. There are also some circuits that have 
not gone in that way. So it is not fair that whether or not you 
have rights, not to be discriminated against based on sexual 
orientation or gender identity cannot depend on the state you 
live in, the location, or the circuit. That is not a fair way 
to have civil rights protections.
    These protections need to be firmly established in the 
legislation so that all genders need to follow it, all circuits 
need to follow it, and that everyone in the country can have 
this protection.
    Chairman Nadler. Thank you. I take it you mean should not, 
not cannot.
    My time has expired. The gentleman from Georgia, the 
Ranking Member, Mr. Collins, is recognized.
    Mr. Collins. Thank you, Mr. Chairman.
    H.R. 5 will require under Federal law that all entities 
receiving Federal financial assistance, including K-12 schools, 
colleges, hospitals, recognize whatever self-professed gender 
identity an adolescent might profess. In the audience today are 
several parents who are representing the Kelsey Coalition. 
These are parents of transgender-identifying children who have 
been harmed by gender identity medical practices. Their stories 
are not reported in the press. They have been denied meetings 
with their representatives, and they are here today to make 
sure that this committee will seriously consider the disastrous 
impact of including gender identity in the Equality Act, under 
which doctors will be required to administer testosterone to 
young girls on demand, they will be required to block the--of 
young boys based on the feelings of gender confusion, and this 
is already happening, including gender identity in the Federal 
law will turn these unsound medical practices into Federal 
mandate.
    The opposition to this bill is both deep and wide in both 
Republican and Democrat men and women, mothers and fathers from 
all sides of the political spectrum, and no side at all. I just 
received a letter this morning from a Georgia mom deeply 
concerned with what is happening with girls sports and its 
effect on daughters and girls everywhere, and I would like to 
ask that to be submitted for the record.
    Chairman Nadler. Without objection.
    Mr. Collins. But opposition to this bill also consists of 
many people who are scared to express their views, and so we on 
our side are going to use some of our question time to give 
voice to those who might otherwise remain voiceless in the face 
of the injustice that will be imposed by this legislation.
    To that end, I will begin my questioning by reading parts 
of the peer-reviewed study by Dr. Lisa Littman entitled, 
``Parents Reports of Adolescents and Young Adults Perceived to 
Show Signs of Rapid Onset Gender Dysphoria,'' which shows how 
the transgender ideology is propagated in part by social media 
and aimed at vulnerable children. H.R. 5, if enacted, would 
codify an Internet phenomenon into Federal law.
    H.R. 5 would make it illegal for well-meaning parents and 
doctors to protect children from rash judgments that are part 
of childhood, even more so in the era of smart phones and 
social media obsession. The following is from Dr. Lisa 
Littman's article.
    Dr. Littman found that none of the AYAs, adolescents and 
young adults, described in the study would have met diagnostic 
criteria for gender dysphoria in childhood. In fact, the vast 
majority, 80.4 percent, had zero indicators from the DSM-V 
distinct diagnostic criteria for childhood gender dysphoria, 
with 12.2 percent possessing one indicator, 3.5 with two 
indicators, and 2.4 with three indicators.
    Adolescents and young adults had received online advice, 
including that if their parents were reluctant to take them for 
hormones, that they should use the suicide narrative, telling 
the parents that there is a high rate of suicide of transgender 
teens to convince them, 20.7 percent, and that it is acceptable 
to lie or withhold information about one's medical or 
psychological history from doctors or therapists in order to 
get hormones and get hormones faster, 17.5 percent.
    There is a lot of concern, as I stated in my opening 
statement. There is love and compassion for all folks who are 
going through different stages, but this bill has real 
consequences and real concerns.
    Professor Coleman, as a member of Congress I am used to 
being discussed in the third person about what I have said and 
not said, and my Chairman, we talk about each other a lot in 
different ways than what we have said, but your testimony has 
actually been brought up, and I would like for you to be able 
to respond to what was said earlier, discussing the dysphoria 
aspect and some of these differences that we have seen that is 
not isolated in this, and I would like for you to comment on 
that.
    Ms. Coleman. Thank you. So, I understand that sport is 
really important in consideration of this bill, but it covers 
things more broadly, and I want to make clear again that my 
position is narrow and concerns only sport, and you can do with 
that what you would like.
    A couple of responses. Again, Professor Yoshino mentioned 
that transgender girls and women have not yet broadly displaced 
girls and women in sport. That is absolutely right, but also 
this is just the beginning of a period of time in various 
states where trans kids are coming out as trans and are being 
welcomed and included for their authentic selves. So the 
question is what will happen if this trend continues and 
identification into girls' and women's sport comes to be based 
on gender identity rather than biology, or in addition to 
biology on an equal basis.
    In the Olympic movement we have seen the effects of this 
issue in the last period where the Court of Arbitration for 
Sport lifted the requirements of testosterone reduction for 
intersex and trans women. For example, the Olympic podium in 
the women's 800 meters likely was comprised entirely of 
biological males in the last Olympic championships, and that 
is--we are talking three people out of hundreds of girls and 
women.
    I will just add, with respect to the national championships 
in indoor track recently, the high school and college national 
championships, only one of the two girls from Connecticut was 
able to compete, and the girl who was able to compete had 
satisfied the National Scholastic Athletic Foundation policy of 
dropping her T levels for over a year to within the women's 
range, the girls and women's range.
    Mr. Collins. Well, thank you.
    And again, I appreciate everyone who has come here today. 
We may disagree on certain things, but also not everything is 
simply solved by nature or number, and these are questions that 
need to be addressed and need to be talked about. But I think 
the concerns, most that I relate here, is something that we 
need to discuss, and I appreciate the Chairman having it, and 
we will continue on.
    With that, I yield back.
    Chairman Nadler. I thank the gentleman.
    The gentle lady from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Like so many other Americans, LGBTQ have had their rights 
eroded since the Administration took power, from removing LGBTQ 
issues from Federal data collection surveys, to the ban on 
transgender individuals who are serving in the military, just 
to name a few. The first few years of the presidency had our 
country taking several steps backwards.
    We have taken this step with the Equality Act to stop 
stepping backwards but to step forward, and I am a proud 
original co-sponsor of this bill. As a consequence, everyone, 
regardless of their sexual orientation, should be afforded the 
same protections provided under the Civil Rights Act and other 
civil rights bills, and the Equality Act does ensure that that 
is the case.
    I have listened to the testimony, and all of you said 
interesting things, and I appreciate that you were here. But, 
Reverend Wiley, I was so moved listening to your testimony and 
thinking back to your days in the segregated south. We have 
many challenges remaining, but we have made some progress. We 
should celebrate the successes in addition to bemoaning the 
challenges that remain.
    But I am particularly struck that you are here as a man of 
faith, and many opponents--I am not suggesting here on the dais 
today but in our country--of LGBTQ equality claim that somehow 
that equality is at odds with religious freedom and with people 
of faith, and yet here you are, a faith leader testifying in 
support of this bill.
    Why, as one who has dedicated himself to religious life 
your entire life, do you support LGBTQ equality? How do you 
reconcile your faith, your belief, with those who oppose it for 
religious reasons?
    Rev. Wiley. Thank you for the question.
    I grew up as the son of a Baptist minister. My uncles, a 
couple of uncles were ministers. I have an aunt who is a 
minister, cousins, my brother. So I have been surrounded by the 
Church all my life, and I am thankful that my parents not only 
taught me the Bible, but they also lived what they believed to 
be the principal concept of the Bible that included justice, 
equality, liberty, compassion, and those are the kinds of 
things that were instilled in me.
    And also, the need to stand up for what we believe is 
right. My father assisted Dr. King on many occasions in the 
civil rights movement. So I grew up believing that it was part 
of my responsibility as a minister not just to stand in the 
pulpit and preach on Sunday mornings, but also to be active in 
the community and in the nation and the world in an active way 
to challenge any kind of issue that would bring any kind of 
injustice to people.
    I also was taught to respect and appreciate all of God's 
creation, that God was a god of love and a god of forgiveness 
and a god of saying that everybody is welcome into God's house.
    So I am sometimes amazed at how the Church is not more 
active in struggles like this. Martin Luther King, Jr., when he 
was sitting in the Birmingham jail and wrote the letter from 
that jail, he was concerned that some of the ministers in that 
town were saying he was going too fast, he needed to wait, he 
needed to slow down and be more gradual. But he says that he 
could not wait because justice delayed is justice denied.
    So that is where I come from. And not only was I involved 
in the struggle for racial justice but as I studied with 
theologians, they helped me to understand that none of us are 
free until all of us are free.
    Ms. Lofgren. Thank you very much, Reverend. My time is 
expired, but your words are inspiring to us all. Thank you very 
much.
    Rev. Wiley. Thank you.
    Chairman Nadler. Thank you.
    I now recognize the gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. And thank you to all 
the witnesses for providing insight for members on both sides 
of the aisle here, whether you are for or against H.R. 5.
    As well as being a member of this committee, I happen to be 
the ranking member of the House Small Business Committee, which 
is the lead Republican on that committee. In the last two 
congresses I was chairman of that committee, and in that 
capacity we get to hear from small businesses all over the 
country about how laws that we pass here impact them on a daily 
basis, and I would note that America's small businesses provide 
about 70 percent of the new jobs created in America nowadays.
    With respect to H.R. 5, small business, particularly small 
business owners who have common religious beliefs, many of whom 
are women, have shared their concerns about H.R. 5 with me and 
other members. For example, and we have already seen this in 
athletics, where physical men now in some cases have to compete 
with women, we heard testimony on both sides of that, and it 
does not seem to be fair to a lot of people that men who 
identify as women are competing with women. Similarly, it does 
not seem fair for men who identify as a woman to be able to 
take advantage of certain government contracts, because doing 
so allows them to utilize the women-owned small business 
Federal contracting program, for example, which is designed to 
provide greater access to Federal contracting opportunities for 
women-owned small businesses.
    One of the requirements to be certified in that particular 
program is to be 51 percent owned and controlled by one or more 
women. This program gives contracting officers a statutory goal 
of providing at least 75 percent of Federal contracting dollars 
to women-owned firms, and adopting H.R. 5 could mean that this 
program and others like it, designed to level the playing field 
for women in business, could be jeopardized. So that is 
certainly, I think, something to be considered.
    It could also mean that small business owners would have to 
provide the cost of providing health care if one of their 
employees wanted to undergo elective procedures that were 
covered under H.R. 5, the bill that we are considering today. 
This could be very costly for small business owners who are 
already facing rising health care costs under the Affordable 
Care Act or Obamacare, whichever terminology one prefers. 
Forcing them to provide pharmaceutical and other types of 
health care for these sorts of procedures because someone 
identified as a member of the opposite sex could, no doubt, 
exacerbate the already high cost to small business.
    So overall, while H.R. 5 says it is intended to provide 
equality for all, it in many people's views does anything but 
and goes beyond creating a level playing field to once again 
making it easier for men who identify as women to take 
advantage of programs that are actually designed to do that. So 
that is something to be considered.
    And then finally, there is a report from Dr. Littman, a 
study that I think a number of us had access to. This is a 
different topic, but there are online instructions about lying 
to parents and physicians under this, and these are a couple of 
things that it said, and these are quotes from some of these 
young people.
    ``Find out what they want to hear if they are going to give 
you T,'' which apparently stands for testosterone, ``and then 
tell them just that. It is about getting treatment, not about 
being true to those around you. It is not their business, and a 
lot of time doctors will screw stuff up for you.''
    Another one said, ``Get a story ready in your head and, as 
suggested, keep the lie to a minimum, and only for stuff that 
can't be verified, like how you were feeling but was too afraid 
to tell anyone, including your family.''
    From another one, ``I would also look up the DSM,'' which 
is Diagnostic and Statistical Manual, by the way, ``for the 
diagnostic criteria for transgender and make sure your story 
fits it, assuming your psych follows it.''
    Another correspondent offered, ``He is rewriting his 
personal history to suit his new narrative.''
    And another respondent said, ``Our son has completely made 
up his childhood to include only girlfriends and dressing up in 
girls'' clothes and playing with dolls, etc. This is not the 
same childhood we have seen as parents.''
    And then finally another parent said, ``I overheard my son 
boasting on the phone to his older brother that the doc 
swallowed everything I said hook, line and sinker, easiest 
thing I ever did.''
    And I yield back.
    Chairman Nadler. I thank the gentleman.
    The gentleman from Georgia, Mr. Johnson, is recognized.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    Good morning, and thank you all for being here today. 
Super-protections should ensure that no one can be 
discriminated against in their housing, their employment, and 
their public accommodations. Would you agree with that, 
Professor Coleman?
    Ms. Coleman. Yes, sir, I do.
    Mr. Johnson of Georgia. And do you agree with that, Ms. 
Beck.
    Ms. Beck. Yes.
    Mr. Johnson of Georgia. And so you both seem to be more in 
line with discriminating in the area of athletics, in the area 
of women's athletics. Is that correct, Dr. Coleman, Professor 
Coleman?
    Ms. Coleman. That is what I am here to testify about.
    Mr. Johnson of Georgia. And Ms. Beck, you also?
    Ms. Beck. I believe sex is a basis upon which sports should 
be segregated.
    Mr. Johnson of Georgia. Now, is it true that there are some 
women who have high levels of testosterone, and then some with 
lower levels of testosterone?
    Ms. Coleman. So, if I can, I can point you to----
    Mr. Johnson of Georgia. Well, I mean, I am just asking as--
some women, traditional women, if you will----
    Ms. Coleman. Biological females' T levels do not overlap 
with biological males' T levels. There is quite a gap, no 
overlap, between the two ranges.
    Mr. Johnson of Georgia. So you are in favor of kind of 
discriminating in the field of athletics based on testosterone 
levels.
    Ms. Coleman. We have always done that. Sports has always 
done that.
    Mr. Johnson of Georgia. All right. Now----
    Ms. Coleman. That is the reason women's sport exists, is 
because of testosterone levels.
    Mr. Johnson of Georgia. Ms. Chandy, what is your position 
on that, on that distinction insofar as it would create an 
ability to legally discriminate against someone?
    Ms. Chandy. The Equality Act would ensure that LGBTQ 
students, including women and girls who are LGBTQ, have the 
same opportunity to participate as their peers. We have heard 
about the benefits of sports, particularly for students who may 
be experiencing self-esteem or other concerns. It can be 
incredibly important.
    And so the key for most of the people playing in sports is 
for inclusion and participation at those levels, and state 
schools and athletic associations across the country have found 
for many years that equal participation for LGBTQ students, 
including ones who are transgender, does not harm women and 
girls' sports in any way.
    I also want to say that under similar state laws, schools 
and athletic associations have developed approaches that place 
primary focus on ensuring equal opportunity for participation 
for transgender athletes while taking account of the different 
context for ages and levels of competition. And so there are 
rules that govern these areas where experts can figure out how 
to allow transgender students to participate equally and 
without facing discrimination.
    So these sort of discussions and rules are already in place 
in half of our country, and I was so relieved to hear Professor 
Coleman say this is actually not a problem now. This is a 
hypothetical problem. And meanwhile people are being excluded, 
and we want people to not have a place on the team for some 
hypothetical problem that we cannot even--we have no evidence 
of it. So we cannot create law based on that.
    Mr. Johnson of Georgia. Thank you.
    Professor Yoshino, has this issue of testosterone levels 
and sports been an issue that you have formed an opinion about?
    Mr. Yoshino. I do have an opinion.
    Mr. Johnson of Georgia. Turn on your microphone.
    Mr. Yoshino. I defer it to Ms. Chandy, who has deeper 
expertise on this issue than I, but I do have an opinion based 
on the mere empirical evidence that has been adduced. We opened 
with Ranking Member Collins offering up the example of the two 
individuals in Connecticut who placed first and second in a 
particular athletic meet. Ms. Chandy responded by saying they 
went on to nationals. One did not participate, the other placed 
30th.
    Then I understood Ranking Member Collins to follow up on 
that and to say to Professor Coleman I understand that this is 
not a single incident and this is actually a much broader 
phenomenon, and I heard Professor Coleman agree with my 
testimony to say that this is not a broad phenomenon, that 
these are isolated incidents, but that in the future we might 
expect more. And my only response to that is again the 
federalism point, which is that we have had decades of 
experience since the 1970s of women participating, trans women 
participating in women's leagues, and they have not dominated.
    It just strains credulity to think that an individual who 
is undergoing such a deeply personal transformation as to 
transition away from the gender assigned to them at birth would 
do so opportunistically simply because they wanted a gold medal 
in some track meet. This is not what gender identity is about, 
and this is not what the AMA or the American Psychological 
Association or the American Psychiatric Association say that it 
is about.
    This is a civil rights issue. This is not about individuals 
opportunistically trying to take advantage of particular 
entitlements or benefits that are accorded to women, whether 
that be in sports, whether that be in small business. It is a 
deeply, deeply personal issue of identity formation that 
occurs, as many physicians say, at a very early level.
    And one thing that I really appreciate both sides of the 
aisle being concerned about is our youth and our children, and 
I am glad to hear that even opponents of this bill articulate 
deep compassion for the children who are affected by gender 
identity disorder. I will point out that in the name of that 
compassion, I think it is useful to point out that the suicide 
rate among individuals who are transgender is 40 percent. Forty 
percent of individuals had attempted suicide in their lifetime, 
which is nearly nine times the attempted suicide rate in the 
overall population.
    Chairman Nadler. The gentleman's time has expired. Thank 
you.
    Mr. Cicilline. Mr. Chairman, may I make a unanimous consent 
request? Mr. Chairman, I ask unanimous consent, in light of 
this line of questioning, that this statement of women's rights 
and gender justice organizations in support of full and equal 
access to participation in athletics for transgender people be 
made a part of the record.
    It is signed by a number of organizations, including the 
American Association of University Women, Legal Voice, National 
Women's Law Center, the National Women's Political Caucus, 
Women Leaders in College Sports, the Women's Sports Foundation, 
and many, many others. I ask that it be made a part of the 
record.
    Chairman Nadler. Without objection, the document will be 
made a part of the record.
    [The information follows:]
      

                 MR. CICILLINE FOR THE OFFICIAL RECORD

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Nadler. The gentleman from Texas, Mr. Gohmert, is 
recognized.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Ms. Coleman, you had a response to the last answer?
    Ms. Coleman. Yes, please. So, trans women and trans girls 
are participating in sport, and most of them--this is just a 
factual point--most of them have dropped their T levels. In 
fact, part of transitioning, as I think everyone knows here--I 
do a lot of work with trans kids, including in the medicine 
area, and one of the things that trans girls would like to do 
is to drop their T levels into the female range as part of 
becoming their authentic selves. And when they do this and they 
compete, it is not at all a problem.
    So just to be clear, at least my position is not that trans 
kids should be excluded from sport. It is simply that inclusion 
based on biology or biological trait, sex-linked traits makes 
sense because otherwise, in fact--and this is not a 
hypothetical. In fact, it will be the end of girls' and 
women's-only sport if we make simply gender identity the basis 
for eligibility for----
    Mr. Gohmert. Right. You will have men's sports and you will 
have co-ed sports.
    You were one of two girls to get a track scholarship to 
Villanova in 1978, thanks to Title 9. And the point has been 
made--and I can see your facial expression, Professor Coleman--
about the comment that there is no evidence of a problem with 
men competing. But there is no question that problem will 
continue to arise, and nothing more dramatic than this diagram 
you have, each one of these points representing an athlete, and 
the three red dots that are lost in the middle representing 
three Olympic winners in the 400 meters, and yet when they are 
compared with just the performances in the single year of 2017 
of men, as you say, it shows that even at the women's best, the 
women would lose to literally thousands of boys and men, 
including to thousands who would be considered second tier in 
the men's category.
    I think that we consider laws to say something is equal, 
like testosterone, when the testimony has already indicated it 
is clear in the medical literature it does make a difference. 
As you say in your testimony--I thought it was pretty clear--
``Scientists agree that males and females are materially 
different with respect to the main physical attributes they 
contribute to athletic performance.''
    It is true, but to see that graph you have, that 
demonstration, anybody here that seriously thinks that there 
are men who would not like to have Professor Coleman's 
scholarship and could get it, apparently there are thousands 
that could have beat you if there are guys that say, look, I 
feel like I am a woman--and let's be fair here, too. If we are 
going to say, as this law does, that the Olympic Committee and 
every other sport is going to have to eliminate the 
testosterone level requirement, that is going to have to go, 
because the presence of that rule makes it very clear that 
there is not equality in sports, and that is why that rule was 
put in place, because it was so unfair to the women.
    And you point out in your testimony--I mean, viva la 
difference, but women are biologically able to carry children, 
most, and men are not. There is a difference. And having my own 
experience in the area of felony judgeship prosecution, I think 
about all the psychiatric testimony I have heard about women 
who--they seem to have more post-traumatic stress disorder from 
sexual assault, and yet we are going to force them to have men 
in combined spaces, in shelters where they are seeking refuge 
away from men inflicting violence on them, and because we are 
going to stand up here and say, well, it is just too bad, we 
are going to force men to be into your spaces, and you are 
going to have to like it, I think is a war on women that should 
not be allowed.
    We need to make consideration for what is going on, and I 
would ask unanimous consent--Ms. Chandy, you talk about 
evidence? This is one of the best, most thorough reports, the 
New Atlantis, the Journal of Technology and Society. I would 
ask unanimous consent that this special report on sexuality and 
gender be admitted as part of the record.
    Chairman Nadler. Without objection.
    Mr. Gohmert. The head of Johns Hopkins, the first hospital 
in America to do sex-change surgery, Dr. Paul McHugh, his 
article in the Wall Street Journal dated May 13, 2016.
    Chairman Nadler. Without objection.
    Mr. Gohmert. And also the transgender individual that had 
the surgery, his article in the Federalist from January 29, 
2019, I would ask that that be made a part of the record.
    Chairman Nadler. Without objection, the documents will be 
admitted into the record.
      

                  MR. GOHMERT FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Nadler. The time of the gentleman has expired.
    I would ask unanimous consent that the following documents 
be inserted into the record: a statement from the ACLU in 
support of H.R. 5; a statement from Todd Brower of the UCLA 
School of Law in support of H.R. 5; a letter from Nancy Kaufman 
from the National Council of Jewish Women in support of H.R. 5; 
a letter from Business Roundtable in support of the Equality 
Act; Federal policy recommendations regarding how the criminal 
justice system affects the LGBTQ community from the 
organization Black and Pink; and a letter of support from the 
American Bar Association.
    Without objection, I will grant my motion to admit these 
documents.
    [The information follows:]
      

                   MR. NADLER FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Nadler. I now recognize the gentleman from 
Florida, Mr. Deutch.
    Mr. Deutch. Thank you, Chairman Nadler. Thanks for holding 
this hearing. Thanks to Representative Cicilline for 
introducing H.R. 5.
    I am proud to stand with the LGBT community, and with an 
ever-increasing majority of Americans in support of full 
equality and truly equal protection for all.
    I think we can all agree that the mainstream view of LGBT 
has moved forward at a rapid pace in recent years. We still 
have a long way to go for full equality, and the Equality Act 
is an important next step.
    As I realized back when I was in the Florida State Senate, 
on these issues and so many others, legislative progress is 
tied to personal experience. When I introduced the Employment 
and Non-Discrimination Act in Florida, it did not include 
protections for trans people because we thought, you know, 
maybe we can just take what we can get, we will make a little 
bit of an advancement, and that will be a dramatic step 
forward.
    And thanks to the thoughtful and passionate advocacy of 
Equality Florida and so many other activists that I had become 
privileged to know and become friends with, I came to 
understand how important it was to include trans rights, and 
what I learned then and what we are reminded of today is that 
equality means equality, and you cannot have full equality if 
we leave people behind. That is what we are reminded of at this 
hearing today.
    So I am a proud and outspoken ally of the LGBT community 
and the trans community especially, and I want to thank the 
panel for being here. I want to thank Carter and Jami--sorry, 
Mr. Brown and Ms. Contreras. I want to thank you both for 
coming here today to share your stories. It can be hard to open 
your lives to the microscope of this hearing, but I think 
having members hear about your experiences with discrimination 
is a critical step to help move all of us forward.
    What struck me about both of your experiences is that you 
were both doing everything right. Mr. Brown, you invested in 
yourself. You worked hard to make a better life for yourself 
and your family. The thought that it could all disappear by the 
simple disclosure of your identity as a trans man is repellant, 
but it is, sadly, not surprising.
    Ms. Contreras, beyond the denial of care that you 
ultimately experienced, you and your wife wanted to take on the 
burden of being discriminated against in advance, in advance, 
to shield your daughter from having to experience it herself, 
when in a fair world all three of you would be protected.
    Both of your cases get to the heart of why the Equality Act 
is necessary. Yes, some states have laws explicitly protecting 
people from these kinds of discrimination, but fewer than half. 
So we can either accept that fewer than half of Americans 
benefit from equal treatment, or we can move forward with the 
Equality Act. That is what today is about.
    Now, I would just like to say a couple of words about some 
of what I have heard here today, and the gentleman from Texas' 
comments before especially. I am grateful to the trans 
community for something that I never thought I would be 
grateful for, and that is that there is now an interest in the 
other side of the aisle in women's athletics that has never 
existed in this House before. [Laughter.]
    Mr. Deutch. So I am thankful for your helping to elevate 
the issue of full participation in women's athletics. Thank you 
for helping to accomplish that.
    I also was struck by----
    Mr. Gohmert. Will the gentleman yield?
    Mr. Deutch. I will in one moment because I am going to say 
one more thing about something else you said.
    I also would acknowledge that it is, frankly, rich for some 
of the members on the other side of the aisle who come to this 
committee literally every single time we meet since I have been 
in Congress doing everything they can to limit the ability of 
women to make their own choices about their own bodies, to talk 
about a war on women. That is absolutely rich, but I would be 
glad to yield to Mr. Gohmert.
    Mr. Gohmert. As a father of three girls who would 
absolutely love seeing them, helping them, coaching them, I 
have been a fan of women's sports for a long time.
    Mr. Deutch. I appreciate that.
    Ms. Chandy, let me just actually give you the opportunity 
to respond to some of what we have heard just over the past 15 
minutes or so.
    Ms. Chandy. You took my main point, which is that I am so 
excited to have a discussion about women's rights. We are 
talking about women's safety in the MeToo moment. We have spent 
a considerable amount of work connecting people with lawyers to 
fight back about sexual harassment in the workplace, in the 
schools, in health care, and across all of these contexts, and 
women's safety and rights is at the utmost, at top of our mind 
as a national women's rights law center.
    So in that context, I want to say that transgender students 
and individuals are at higher risk of sexual violence than 
cisgender women, and we need to protect all of us and be in a 
collective struggle against sex discrimination and sexual 
assault wherever it happens. If there is an incident of 
assault, whether it be in a shelter, a prison, or anywhere 
else, it must be investigated and dealt with, and we are very 
firm about that. But we do not create policy about myths and 
stereotypes, and that is what I am hearing here today, is that 
based on individual instances of harassment or assault, they 
must be addressed.
    But that is not a reason to exclude transgender individuals 
from this bill, and you can never do that in the name of 
women's rights, and that is what I am hearing here, and thank 
you for allowing me the chance to respond.
    Mr. Deutch. Mr. Chairman, if I could have 10 seconds, I 
appreciate it.
    Professor Yoshino, I also just wanted to take a moment to 
thank you for your comments at the start of this hearing and 
sharing your very powerful story, your personal story, the 
impact that two moments of our history have had on you and how 
much of an honor it is for us to have you here with us today.
    Thanks, Mr. Chairman. I yield back.
    Chairman Nadler. I now recognize the gentleman from 
Florida, Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    For dozens of days, my Republican colleagues have gone to 
the floor of the House seeking a vote on the Born Alive Act so 
that human beings are not slaughtered and murdered after their 
birth. A number of those human beings are women. So we will 
accept no lecture on that subject----
    Chairman Nadler. Will the gentleman yield for a second?
    Mr. Gaetz. No. Since the majority has taken an excessive 
time, I would like to take all of my time.
    Chairman Nadler. I will grant you an extra minute.
    Mr. Gaetz. Very well. Then you can take it at the end of my 
remarks, Mr. Chairman.
    I want to support this legislation, and in the broadest 
sense I do. I believe that individuals in our country should 
not face discrimination for their sex or their gender or their 
sexual orientation or for their gender identity. Our country is 
an inclusive place, and bigotry and prejudice and 
discrimination do not belong here. I very much want to support 
the legislation, but I keep--because the legislation would only 
nominally protect certain individuals while causing tremendous 
harm to others.
    First off, the legislation has a drafting problem partly 
because H.R. 5 does not define gender identity well, and I will 
read directly from the legislation. It says, ``The term `gender 
identity' means the gender-related identity, appearance, 
mannerisms, or other gender-related characteristics of an 
individual regardless of the individual's designated sex at 
birth.'' And then only a few lines later the bill says, ``The 
term `sex' includes sexual orientation or gender identity. ``So 
gender identity is defined as a concept distinct from sex, but 
at the same time the term sex is defined in part by gender 
identity.
    In the last Congress and this Congress we passed 
legislation for the advancement of women, improving women's 
access to STEM education in careers. We passed bills that 
increased the number of women-owned businesses to help female 
entrepreneurs, and more.
    What happens when sex is defined as gender identity and 
gender identity is terribly vague? Will all sex distinctions be 
erased? That may sound like something my colleagues on the 
other side of the aisle would cheer, but thinking more broadly, 
would grants for female-owned businesses or programs for women 
in STEM fields suddenly be open to all persons whether they 
believe or not that they identify as a woman?
    I strongly support the rights of transgender individuals. I 
will not denigrate or deny their existence or their struggles, 
but I am concerned about the potential bad actors who exploit 
the provisions of this law for their own gain.
    Consider this possibility. If President Trump were to say 
``I am now the first female president,'' who would celebrate 
that? Would those who support the legislation think that is a 
good thing, or would they be dismayed?
    Bad actors have already weaponized some ostensible equality 
laws for their own benefit. Steven Wood was convicted of serial 
sexual assault and was in prison. He then announced that he 
identified as Karen, a woman, and was transferred to an all-
female facility, where he promptly sexually abused female 
inmates.
    Recently, a musician and weight lifter who identified as 
Zube briefly claimed identity as a woman, during which time he 
broke the women's world record dead lift, and then promptly 
went back to identifying as a man.
    These are isolated instances, to be sure, and I am most 
emphatically not saying that a majority of transgender 
individuals are using their gender identity to exploit the 
process. But I am saying that these cases do exist, and the 
legislation before us would expand and exacerbate those 
problematic loopholes.
    Faith-based businesses, religious institutions, and 
religious groups would find their rights greatly jeopardized by 
the legislation as it explicitly prevents claims from being 
filed on the Religious Freedom Restoration Act. Consider the 
Chairman's own words on the passage of that bill. He said, 
``What has made the American experiment work? What has saved us 
from the poisonous hatreds that are consuming other nations has 
been a tolerance and a respect for diversity enshrined in the 
freedom of religion clauses of our Bill of Rights. It was no 
accident that the framers of our Bill of Rights chose to place 
the free exercise of religion first among our fundamental 
freedoms. The House should do no less.''
    Yet this legislation significantly and overtly undermines 
religious freedom, and it is not something worth celebrating 
because it will harm people and communities of faith across our 
nation.
    Again, I support protecting individuals from discrimination 
based on their sexual orientation or gender identity, but this 
legislation creates more problems than it solves. It will chill 
freedom of speech. It will harm religious liberty. It will 
undermine women's rights, and I wish I could support it, but I 
cannot.
    I wanted to yield my remaining 20 seconds to Ms. Beck 
because I found your advice very instructive about a path 
forward that would accommodate our desire for greater equality 
without falling into some of the traps I have identified.
    Ms. Beck. Thank you, and I would like to dispel some of the 
logical fallacies that were stated today.
    No one is saying that people do not exist. How can we tell 
if someone is lying about identifying as transgender? If Karen 
White was a woman, then he would have belonged in a woman's 
prison. But we know that he was lying. There is no way to tell 
if someone is lying about being transgender because there is no 
evidence.
    And I would like to go back to what Ms. Chandy said. If 
there is no evidence, we cannot legislate.There is no evidence 
of a gender identity. It is not a material reality at all.
    There is also the myth of assault being higher for people 
who identify as transgender. But according to GLAAD, in 2015 
there were 20 people killed. The rate of murder for transgender 
identified individuals is 1.5 per 100,000. That is lower than 
the murder rates of both men and women. So this data shows that 
people who self-identify as transgender are murdered at a lower 
rate than the general population.
    I would also like to say that--where else was----
    Chairman Nadler. The time of the gentleman has expired, has 
well expired.
    The gentleman from New York, Mr. Jeffries.
    Mr. Jeffries. Thank you, Chairman Nadler. Let me also thank 
my good friend David Cicilline for his tremendous leadership on 
the Equality Act.
    I have great respect for my friend from the State of 
Florida, but the reality of the situation is that many of my 
colleagues voted against the Paycheck Fairness Act. Many of my 
colleagues voted against equal pay for equal work, 
notwithstanding the fact that women are paid approximately 80 
percent of what men are paid for doing the same job. Many of my 
colleagues on this Judiciary Committee voted against the 
Violence Against Women Act.
    So we do find it strange that you want to come here and 
lecture us about women's rights.
    Ms. Chandy, you have 20 years of experience in civil rights 
law and are a member of the LGBT community; is that correct?
    Ms. Chandy.Yes, that is correct.
    Mr. Jeffries. And LGBTQ Americans make up approximately 4.5 
percent of the population; is that right?
    Ms. Chandy. Right.
    Mr. Jeffries. And it is about 14 million people; is that 
correct?
    Ms. Chandy. Yes.
    Mr. Jeffries. But there is no Federal legal standard that 
guarantees 14 million Americans rights and protections under 
our civil rights law; is that right?
    Ms. Chandy. That is correct.
    Mr. Jeffries. So that means that there are still places in 
the United States of America where someone can be fired because 
of their gender identity or sexual orientation; is that right?
    Ms. Chandy. That is right. There is Federal law that is 
evolving, but it is not a guarantee, and there is no clear or 
explicit protection in Federal law to protect against sexual 
orientation or gender identity-based discrimination.
    Mr. Jeffries. And are there still places in the United 
States where someone can be evicted because of their gender 
identity or sexual orientation?
    Ms. Chandy. That is correct.
    Mr. Jeffries. And still places in the United States of 
America where someone can be denied a loan because of their 
gender identity or sexual orientation?
    Ms. Chandy. That is correct. I am giving just the caveat 
that there are Federal protections evolving, but those are not 
guaranteed, and so it is sort of a guess. So we need the clear 
Federal protections.
    Mr. Jeffries. Okay. And approximately 50 percent of LGBTQ 
Americans live in 30 states that lack statewide legal non-
discrimination protections; is that correct?
    Ms. Chandy. Right.
    Mr. Jeffries. Is that one of the reasons why it is 
important to have a Federal standard?
    Ms. Chandy. That is right.
    Mr. Jeffries. Okay. Nearly two-thirds of LGBTQ Americans 
report having experienced discrimination in their personal 
lives; is that true?
    Ms. Chandy. Right, yes.
    Mr. Jeffries. And do discriminatory laws and practices have 
a negative impact on our economy?
    Ms. Chandy. Well, of course. You are not getting jobs, not 
getting housing, you are not able to purchase things. I mean, 
the areas of protection that we are looking for today impact 
all areas of our lives.
    Mr. Jeffries. Ms. Silas, several hundred companies, 
including your own, support a Federal non-discrimination 
standard for LGBTQ Americans, like the one included in the 
Equality Act; is that right?
    Ms. Silas. Correct.
    Mr. Jeffries. And can you explain why you as a business 
person support it?
    Ms. Silas. Yes, there are a number of reasons. One, I 
stated earlier that enduring 100 years as a prominent American 
company has been grounded in really our belief around fairness 
and equality, and this is not the first issue we have advocated 
for, and it certainly will not be the last, but we think it is 
an enduring characteristic of an American company.
    The second is the survival of any corporation is about 
skills, and adequate access to those skills, and we believe 
that access to skills means that we need to ensure that our 
employees are in environments that will protect them and their 
families, and that that does not become a distraction to the 
productivity and the contribution that they can have to 
American innovation.
    And then lastly, what we find problematic is certainly the 
patchwork of legislation. So thinking about a brand such as IBM 
and how we operate, it certainly is not within state lines, and 
we cannot just ensure access to skills and protections of 
employees based on singular state legislation, but there really 
needs to be a Federal minimum standard so that our employees 
can operate and run our business broadly.
    Mr. Jeffries. In terms of that patchwork, one of the things 
that my free enterprise colleagues on the other side of the 
aisle often lecture us about is the notion that we need 
certainty in the business environment. How can you have 
certainty when there is a patchwork of legislation in terms of 
what States do or do not do?
    And last question--my time is expiring--am I correct that 
your company actually bases business decisions on whether a 
State has a nondiscrimination protective statute or not?
    Ms. Silas. That is 100 percent correct, and that is correct 
in this context and dates as early as the 1950s, when we 
declared even prior to the Civil Rights Act that we would be 
making decisions around where we base our employees based on 
segregation policy at that time and the idea that we would not 
comply with that. So it is not new to us, and it certainly is 
the case today.
    Mr. Jeffries. Thank you. Not only is the Equality Act in 
our view pro-American, it is also pro-business.
    I yield back.
    Chairman Nadler. I thank the gentleman for yielding. The 
gentleman from Colorado, Mr. Buck.
    Mr. Buck. Thank you, Mr. Chairman.
    Ms. Contreras, I wanted to ask you a quick question.
    You said in your testimony that you had chosen a doctor, 
and the doctor refused to work with you, and another doctor 
came in and worked with you. Did you receive inferior medical 
care?
    Ms. Contreras. Possibly. I don't know, to be honest with 
you. So we didn't do any research on that doctor. We didn't 
have the opportunity to.
    Mr. Buck. Did you have any complaints about the medical 
care that you received from that doctor?
    Ms. Contreras. There were some things in that meeting that 
were less than what we were looking for and what we expected 
from a pediatrician, yes.
    Mr. Buck. Did you--is your daughter healthy now? Ms. 
Contreras. Yes, she was healthy at the time, luckily. Yes.
    Mr. Buck. Is it your position that an orthodox Jewish 
doctor should be required to work with a--orthodox Jewish 
doctor whose grandparent was killed in the Holocaust be 
required to work with a Nazi patient?
    Ms. Contreras. Well, here is what I--here is what I 
believe. I believe that the Religious Freedom Act, religious 
freedoms are a core American value. I think it is very 
important. I think it is important that you know that I was 
raised on Christian values, came from a Christian home. Me and 
my wife are raising our children on those same values, which is 
respect everyone, love thy neighbor, treat everyone equally, 
which is----
    Mr. Buck. Would you answer my question? Should that doctor 
be required to take that patient?
    Ms. Contreras. I think that there are some people here that 
could answer that a little bit better than I could, but I think 
that everyone should be treated equally and----
    Mr. Cicilline. Mr. Buck, if you will yield, I am happy to 
answer that question. I don't view Nazis as a protected class--
--
     Mr. Buck. I will not yield. I will not yield. I reclaim my 
time. I will not yield.
    Mr. Cicilline. Oh, okay.
    Mr. Buck. Professor Coleman, I have a question for you.
    Chairman Nadler. If the gentleman doesn't want an answer, 
he doesn't have to yield.
    Mr. Buck. Well, that is a nice cheap shot from the 
chairman. I appreciate that. I didn't know the chairman----
    Chairman Nadler. Not a cheap shot, it is a real shot. 
[Laughter.]
    Mr. Buck. Professor Coleman, under this legislation, would 
BYU be required to open its married student housing to a gay 
couple, a gay married couple?
    Ms. Coleman. I believe so.
    Mr. Buck. And is that the--would you define for me what 
``public accommodation'' means?
    Ms. Coleman. Public accommodations are hotels, restaurants, 
things like that.
    Mr. Buck. A business that opens itself up to the public?
    Ms. Coleman. Correct.
    Mr. Buck. Including a university?
    Ms. Coleman. A university is an educational institution and 
typically is governed under a different set of rules, but 
sometimes it is a place of public accommodation.
    Mr. Buck. Okay. But this law does apply to public 
accommodations?
    Ms. Coleman. Yes.
    Mr. Buck. And Notre Dame the same way would be required to 
open its student housing. And I am not suggesting that BYU or 
Notre Dame would have a religious objection, a theological 
objection to that. But if they did, they would still be 
required to do it?
    Ms. Coleman. I believe so.
    Mr. Buck. And is that your position also, Professor 
Yoshino?
    Mr. Yoshino. I actually don't think that that is correct 
with regard to educational institutions. So if there is a 
religiously run educational institution, that that religiously 
run educational institution would be protected in the same way 
that a church would be protected.
    Mr. Buck. And you are saying that this law does not apply 
to educational institutions receiving Federal financing, 
Federal funds?
    Mr. Yoshino. I don't believe that this alters Title VI. So, 
yes.
    Mr. Buck. Okay, good. I appreciate that. And I yield back, 
Mr. Chairman.
    Chairman Nadler. The gentleman from Rhode Island, the 
author of the bill, Mr. Cicilline is recognized.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you to our witnesses for being here and for your 
really inspiring and very powerful testimony.
    Thank you, Chairman Nadler, for calling this hearing and 
for your outspoken and unwavering support of the Equality Act 
from the very first moment we began to discuss it nearly 5 
years ago.
    This bill is bipartisan and now has 240 cosponsors, 
including 3 Republicans. As we consider H.R. 5 here in the 
House, I can't help but think of the upcoming 50th anniversary 
of the Stonewall riot just a few weeks from now. Just 50 years 
ago, the patrons of Stonewall Inn in New York, one of the few 
places of refuge for the marginalized and criminalized LGBT 
community, were targeted, beaten, harassed, and arrested simply 
for being willing to live their true lives.
    That riot 50 years ago in what is now Mr. Nadler's district 
sparked the modern LGBT rights movement that has ushered in 
extraordinary achievements in our fight for equality. As a 
young man, I never could have dreamed I would be the first 
openly gay mayor of a capital city in America or that I would 
be able to serve in the U.S. House of Representatives openly 
and not afraid to be my authentic self.
    This path was made possible by activists like Harvey Milk, 
Bayard Rustin, Barbara Gittings, and Audre Lorde, to name just 
a few. In the political world, the trail was blazed by many, 
including our former colleagues and my friends Barney Frank, 
Tammy Baldwin, Jim Kolbe, who is here today, and many others.
    And today, I am proud that we have the greatest number of 
individuals from the LGBTQ community in the House of 
Representatives in U.S. history with eight openly lesbian, gay, 
and bisexual Members.
    I want to acknowledge and thank my LGBTQ Equality Caucus 
co-chairs who have supported my efforts on this bill--Mark 
Pocan, Mark Takano, Sean Patrick Maloney, Angie Craig, Chris 
Pappas, Sharice Davis, and Katie Hill, all trailblazers in 
their own right.
    It is important to me that young people now have the 
example of a diverse group of LGBT lawmakers not just on the 
Federal level, but across government at the State and local 
level. We introduced the Equality Act because we don't think it 
is right that members of our community are still told that they 
can't go to school, live where they want to live, work in their 
chosen field, access healthcare or housing. It is simply not 
right, and it undermines core founding values of this great 
country of fairness and equality.
    And I want to be clear that when someone votes against this 
bill or questions why LGBT people should have the same rights 
as everyone else, they are telling me that my rights and the 
rights of my community don't matter as much as their own 
comfort. Now is the time for legal discrimination against an 
entire community of Americans to end.
    Speaker Pelosi has been an extraordinary and great champion 
for our community and a bulwark of support for this bill, as 
are our majority leader Steny Hoyer and whip Jim Clyburn, and 
our esteemed colleague and civil rights icon, John Lewis.
    On the Senate side, we have worked in tandem with the 
Senate lead, Senator Merkley, Tammy Baldwin, and Cory Booker, 
and I couldn't be prouder to have partnered with them in this 
effort.
    As you all know, no major piece of legislation is possible 
without the support and advocacy of a cavalcade of experts, 
advocates, and allies. And I want to take a moment to thank the 
groups who have been so instrumental in getting this 
legislation drafted and introduced with such a strong showing 
of support.
    The Human Rights Campaign, and I know Chad Griffin is with 
us today, the president. The ACLU, the National Women's Law 
Center, the Center for American Progress, the National Center 
for Transgender Equality, the Leadership Conference on Civil 
and Human Rights, the National Black Justice Coalition, the 
National Center for Lesbian Rights, the National LGBT Task 
Force, Lambda Legal, Family Equality Council, the National 
Partnership of Women and Families, the Transgender Law Center, 
Freedom for All Americans, SAGE, PFLAG, the NAACP, the Urban 
League, and many, many others.
    I would also like to mention that we have widespread 
support in the business community from companies of all sizes, 
all across the country. Additionally, we have the support of 
labor groups, trade associations such as the National 
Associations of Manufacturing and even the U.S. Chamber of 
Commerce.
    I would like to ask for unanimous consent to enter this 
list of 330 organizations and 180 companies who have endorsed 
the Equality Act into the record as well.
    Chairman Nadler. Without objection.
    [The information follows:]
      

                 MR. CICILLINE FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cicilline. We have such widespread support because 
businesses know that their employees thrive when they are free 
from harassment, when they are able to visit doctors, take 
their children to school, and live freely.
    I should note that this bill does not only provide 
protections for the LGBT community, we also add protections in 
areas of civil rights law that weren't previously in place. We 
expand the list of public accommodation protections in the 
civil rights area so that there will be recourse for people who 
are harassed for shopping for the color of their skin or flying 
because of their perceived religion.
    This bill will target one of the root causes of poverty, 
marginalization and alienation of many in the LGBT community in 
this country. For example, LGBT people are more likely to live 
in poverty, and LGBT people of color experience some of the 
highest rates of poverty of any group in the United States.
    This can be directly attributed to the discrimination in 
employment, housing, and other areas that make it more 
difficult for people to maintain a job and earn a living wage. 
The Equality Act seeks to level the legal playing field so that 
all Americans have a chance to thrive. It is vital for Congress 
to be clear that sexual orientation and gender identity are 
protected under the law, and individuals cannot be 
discriminated against on this basis.
    But of course, any bill that expands civils rights must 
never retreat from our commitment to the progress that we have 
made, and it is vital and very important that we first do no 
harm.
    So, Mr. Chairman, under our proposal, the very same 
protections that exist for other minorities in the Civil Rights 
Act of 1964 will protect the rights of lesbian, gay, bisexual, 
and transgender people all across America. We are asking for no 
more and no less. And as my great friend and colleague 
Congressman John Lewis told me when we began this work on the 
bill, the time is now.
    I thank you, and I yield back.
    Chairman Nadler. The gentleman's time has expired.
    The gentlelady from Arizona, Mrs. Lesko, is recognized.
    Mrs. Lesko. Thank you, Mr. Chairman.
    I believe that all people should be treated equally, but I 
am concerned that H.R. 5, with the weight of Federal law, 
forces schools, prisons, shelters, et cetera, to prioritize the 
rights of biological males over that of biological women.
    H.R. 5, in the vast number of settings covered, will 
require that men be allowed to enter space formerly reserved 
for women. Whereas Federal anti-discrimination laws are 
supposed to protect women from the unjust dominance of men in 
virtue of their generally bigger size and strength, H.R. 5 will 
require that dominance of males over females in sports and 
incentivize it in other areas such as dormitories, locker 
rooms, bathrooms, and even the Girl Scouts, which is a 
federally chartered and federally funded organization.
    Nine women have sued the Poverello House, one of the 
largest service providers for homeless people in Fresno, 
California, for allowing a male resident to sexually harass 
them during their stay at the nonprofit women's shelter, 
leering at them in the shower, showing them pictures of himself 
masturbating, and making sexual advances. He was permitted to 
do these things on the basis that he identifies as a woman.
    In England, Karen White, who is male, was transferred to a 
female prison on the basis of his self-declared gender 
identity. He later admitted to sexually assaulting women in a 
female prison and raping another two women outside jail.
    Alexis Lightcap, a high school student in the United 
States, is also challenging the violation of privacy caused by 
her own school's policy of allowing boys in the girls' 
bathroom.
    A liberal writer and gay advocate Andrew Sullivan writes in 
opposing H.R. 5, ``The Equality Act also proposes to expand the 
concept of public accommodations to include exhibitions, 
recreation, exercise, amusement, gatherings, or displays. It 
bars any religious exceptions invoked under the Religious 
Freedom Restoration Act of 1993, and it bans single-sex 
facilities like changing, dressing, or locker rooms. It could 
put all single-sex institutions, events, or groups in legal 
jeopardy. The bill, in other words, undermines the fundamental 
legal groundwork for recognizing and combating sex-based 
oppression and sex discrimination against women and girls.''
    Ms. Beck, do you think H.R. 5 will eliminate separate 
spaces and opportunities for biological women?
    Ms. Beck. Thank you, Mrs. Lesko.
    I definitely do. I believe that the language of gender 
identity lends itself readily to abusive gaslighting that 
disguises and distorts women's ability to name what is 
happening. Nothing is to be gained by pretending that all 
social issues and oppressions are gender neutral. We must be 
able to name sex.
    And for women, being female has never been a private 
matter. Institutions such as marriage, prostitution, and forced 
sterilization, and rape mark women's bodies as public domain 
across the world. Well, we won't have the ability to name these 
things if men can be women, if male people can call themselves 
women.
    So, yes, we risk losing all of our sex-segregated spaces if 
H.R. 5 passes.
    Mrs. Lesko. Thank you.
    And Ms. Coleman, do you think that H.R. 5 will eliminate 
separate opportunities in sports for biological women that now 
will be like biological men will be allowed to compete in 
women's sports?
    Ms. Coleman. It won't eliminate the ability to participate, 
but it will eliminate or reduce competitive opportunities 
significantly.
    Mrs. Lesko. Thank you. I yield back my time.
    Chairman Nadler. I thank the gentlelady. The gentleman from 
California, Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair, and let me thank 
Representative David Cicilline for bringing this important 
legislation.
    So some of the arguments I hear from my colleagues across 
the aisle strike me as very similar arguments when their first 
LGBT movement started, the notion that somehow people who are 
transgender are pretending to gain an advantage. That is what 
they said about gay people, that they are just pretending, that 
they could be straight if they wanted to. It spawned this whole 
industry of conversion therapy that did significant harm to 
patients across America.
    One reason I was proud that when I was in the California 
State legislature, I authored the first ban on conversion 
therapy in the Nation, and it has now been copied in multiple 
jurisdictions. And what we are hearing today is a very similar 
argument against those who are transgender.
    And I don't question the motivations of my colleagues. I 
have learned not to do that, and I don't believe they are 
bigoted for believing this idea. I am simply making a point 
that the idea itself is bigoted, and I urge them to let it go.
    I served in the United States military on active duty. The 
U. S. military is the best in the world because we rely on 
data, on facts, on science. We don't live in a fantasy world 
because if we did, U. S. troops will die. We live in reality.
    And reality is women serve in combat. Women serve on 
nuclear submarines. Women are fighter pilots. We are simply 
making progress. And every time we make progress, we hear the 
same exact arguments repeated over and over again.
    So one reason that we now have Title IX, and it has been 
successful, is because congress chose to pass it despite very 
similar arguments again that it was, again, going to hurt 
women. So, Professor Coleman, let me ask you. Are you hearing 
very similar arguments today as you did during Title IX's 
passage in terms of how it would hurt women or equality?
    Ms. Coleman. I think I disagree with you. I think that it 
was pretty clear before Title IX was passed in 1972 that girls 
and women didn't have opportunities in the educational space, 
including in the sports area, but more broadly, in the 
educational space. And that Title IX was going to help girls 
and women by providing those opportunities.
    There may have been some conservative positions that 
suggested that women belonged outside of educational spaces and 
outside of sport, but I think that----
    Mr. Lieu. I am sorry--let me. I was not narrow enough in my 
question. Was there a conservative argument that women would 
be, in fact, you still hear it, would be assaulted?
    Ms. Coleman. Would be assaulted?
    Mr. Lieu. Right. Sexually assaulted because of having their 
athletic facilities not be discriminatory?
    Ms. Coleman. Women would be assaulted----
    Mr. Lieu. Maybe we don't read the same conservative blogs 
that I have?
    Ms. Coleman. I probably don't. I try to stay off of social 
media.
    Mr. Lieu. So let me ask this another way. Title IX has been 
a success. Is that correct?
    Ms. Coleman. Yes.
    Mr. Lieu. Okay. We will leave it at that. So one of the 
things we know about discrimination against LGBTQ is that there 
has been a rise in homelessness among many constituencies, but 
particularly among the LGBTQ sector. So, Ms. Chandy, can you 
explain why that is and how we can try to make that better?
    Ms. Chandy. I would like to use this question to talk about 
the rates of harassment and violence since I think it relates 
to that. Transgender students face harassment and violence at 
far higher rates than their cisgender peers, and confirming 
earlier studies' recent data from the CDC shows that 27 percent 
of U. S. transgender high school students feel unsafe at school 
or traveling to or from campus, that 35 percent are bullied at 
school, and 35 percent attempt suicide.
    Similarly, a survey conducted by the National Center for 
Transgender Equality found that the majority of respondents who 
were out or perceived as transgender in school in K through 12 
experienced some form of mistreatment including being verbally 
harassed, 54 percent; physically attacked, 24 percent; and 
sexually assaulted, 13 percent; because they were transgender.
    And startingly, 17 percent of respondents experienced such 
severe mistreatment that they left school as a result. 
Respondents who did not complete high school were more than 
twice as likely to have attempted suicide as the overall 
sample.
    And finally, in a survey conducted by the American 
Association of Universities, nearly 1 in 4 transgender students 
experience sexual violence in college, a higher rate of 
victimization than that experienced by cisgender college women.
    I wanted to share these statistics because Congress 
designed Title IX to address sex discrimination across the 
board, including women and including transgender individuals.
    And we are continuing to fight against this narrative that 
puts women's rights on one side and LGBTQ rights on another or 
the rights of transgender people on another. Because 
transgender women are women, and so all of us need this 
protection together.
    And that is why, why would the National Women's Law Center 
and the host of women's rights organizations be here in support 
of the Equality Act if it was going to harm women? We are the 
experts on this. This is what we do, day in and day out, across 
sectors, workplace, you know, healthcare. Workplace, justice, 
education, all of these areas, this is what we do is we fight 
for women's rights.
    And so please look to us as the experts on whether or not 
this bill is good for women and LGBTQ people.
    Mr. Lieu. Thank you.
    Chairman Nadler. The time of the gentleman has expired.
    Before I recognize the next person, I ask unanimous consent 
to insert into the record a letter from more than 40 trade and 
professional associations in support of the Equality Act.
    Without objection, it will be entered.
    [The information follows:]
          

                   MR. NADLER FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Nadler. Now I recognize the gentleman from 
California, Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    Last week, I had the privilege of visiting with an 
endocrinologist from my district, Dr. Michael Laidlaw. He has 
witnessed the medical dangers of this obsession with new 
transgender ideology and specifically how dangerously it is 
being pushed on children as young as 8 years old, which will 
only be made worse by this legislation when parents are 
threatened with lawsuits or the loss of their children for 
questioning their child's gender dysphoria or objecting to 
life-altering therapies or surgeries.
    And I would like to submit three items for the record. 
First, a letter he wrote outlining what he has seen and his 
concerns for how H.R. 5 will elevate children's feelings about 
their gender over biological and medical reality.
    Second, a piece he wrote in the Journal of Clinical 
Endocrinology and Metabolism, calling for more skepticism among 
physicians who treat young people claiming gender dysphoria in 
light of the highly detrimental health consequences of gender 
affirmative therapy, such as increased ovarian cancer, lower 
bone density, and thrombosis and pulmonary embolisms.
    And third, an excerpt from an NIH report, indicating that 
NIH has lowered the minimum age for inclusion in their studies 
about gender transition hormones from 13 to 8 years old, which 
I find truly disturbing.
    I would like unanimous consent to enter those into the 
record.
    Chairman Nadler. Without objection.
    [The information follows:]
      

                 MR. McCLINTOCK FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. McClintock. I am hopeful that these documents, along 
with all of the other questions raised by my colleagues today, 
will give pause to those who are championing the embrace of 
this radical trans ideology over biological reality.
    Ms. Beck, am I safe to assume that we should all agree that 
gender-based stereotypes about how men and women should speak 
or act or dress or appear should not be the basis of our 
interactions as a society?
    Ms. Beck. I would only agree if you used the word 
``gender'' as a synonym for ``sex.'' I don't agree with----
    Mr. McClintock. I mean how somebody chooses to act, to 
dress, to talk really should not be an object of notice by 
their government, should it?
    Ms. Beck. I mean, those are all personal traits that are 
subject to change any day, any hour. My hair grows, you know?
    Mr. McClintock. Exactly, and we wouldn't assume that these 
stereotypes--well, we shouldn't use these stereotypes to craft 
statutory or legal definitions on discrimination.
    Ms. Beck. I agree. Like I said earlier, there is no way to 
tell if someone is lying about being transgender. So if a man 
who wears a dress is considered as a woman by Federal law, he 
could be lying, and there is no way for us to tell.
    Mr. McClintock. Well, that is the question I want to get 
at. H.R. 5 gives us a definition of gender identity that is 
based on stereotypes. Let me read from the text of the bill. It 
says the term ``gender identity'' means the gender-related 
identity, appearance, mannerisms, or other gender-related 
characteristics of an individual.
    The drafters of this bill could have saved themselves some 
legalese and just said gender identity means gender 
stereotypes. What does that say about this movement that the 
lawyers drafting this bill are unable to define gender identity 
without relying on stereotypes?
    Ms. Beck. It says not much because they haven't written 
much, unfortunately. I find it really disheartening that we are 
debating a Federal law that is just incomplete and baseless. We 
have given a lot of testimony to show how this would affect 
women negatively, and that is just being--we were told to let 
it go. This would eliminate women and girls as a coherent legal 
category worthy of civil rights protection.
    Mr. McClintock. Well, let me ask you this. I would assume 
that you would support the numerous efforts by the Government 
over the last several decades to promote women-owned 
businesses, for example, by giving women-owned businesses 
preference when competing for Government contracts?
    Ms. Beck. Sure, yes. I think that is all great on the basis 
of sex.
    Mr. McClintock. Well, what should we tell a woman-owned 
business that loses out to a Government contract because a man 
decided to identify as a woman in order to win that contract?
    Ms. Beck. That should never happen.
    Mr. McClintock. Ms. Chandy, doesn't that happen under this 
bill?
    Chairman Nadler. Use your mike.
    Mr. McClintock. Yes, what would you say----
    Ms. Chandy. Transgender women are women, and so I find this 
sort of language about calling transgender women by some other 
name to be not in line with----
    Mr. McClintock. Well, whatever language you would choose--
--
    Ms. Chandy. Can I--can I----
    Mr. McClintock [continuing]. The question remains, what 
would you tell a woman-owned business that lost a contract 
because a man decided to identify as a woman in order to win 
that contract?
    Ms. Chandy. Okay. If it was a transgender woman, I would 
say you lost out. Another woman won. It was probably a better 
application.
     Mr. McClintock. Well, so let me ask this.
    Ms. Chandy. Let me finish. If it was a man who was trying 
to be fraudulent, I would do an investigation on fraud. But 
this question----
    Mr. McClintock. Yes, but how are you going to know----
    Ms. Chandy. Can I finish? Can I answer your question?
    Mr. McClintock [continuing]. if he's trying to be 
fraudulent? No, because the time is mine. Actually, I am out.
    Ms. Chandy. Okay.
    Mr. Cicilline. Mr. Chairman, I ask the witness be permitted 
to finish her answer to that last question.
    Mr. McClintock. Well, if I can have a follow-up question.
    Mr. Cicilline. No, no. Your time has expired, but the 
witness gets to answer the question.
    Chairman Nadler. I will let--excuse me a second. Let the 
witness answer the question, and I will grant the gentleman an 
additional question.
    Ms. Chandy. Thank you.
    This question of people being able to lie about their 
gender identity I find so interesting because I think someone 
raised today people can lie about being gay, people can lie 
about being a lesbian, and yet we need rights because we are 
gay or lesbian. The same rights apply. These are not things 
that people lie about to gain rights. These are things that are 
the basis of really painful discrimination as we have heard 
from so many of us.
    And so to go ahead and mispronoun and misname people based 
on their true identity is--and now these questions are coming 
at me in a way that don't make sense. If it is a man who is 
pretending to be a woman, then that is fraud. If it is a 
transgender person, then it is a woman.
    Mr. McClintock. But under your criteria, the only way to 
decide if the person is lying is to read their mind, which was 
beyond our abilities. And I want to ask you, what if every 
Government contractor in America decided to identify as a 
woman? What mechanism is there for the Government to verify 
that all of these men who do Government contracting are 
identifying with women for genuine gender transition as 
compared to trying to game the system?
    You can't tell unless you can read their minds, and I doubt 
you can.
    Chairman Nadler. The time of the gentleman has expired. The 
witness may answer the question.
    Ms. Chandy. I would just say that is not how civil rights 
laws work. There are individuals who have protections based on 
race. You may or may not be able to tell what their race is.
    I mean, there are protections based on if you are LGBTQ 
that have been in effect across our country in half of the 
States. Sometimes you can tell. Sometimes it is because of a 
perception. That person might not even be LGBTQ, but you think 
they are and you discriminate, and that would be 
discrimination. And so this idea of not being able to tell is 
not really an issue in civil rights law.
    Chairman Nadler. The time of the gentleman has expired. The 
gentleman from Maryland, Mr. Raskin.
    Mr. Raskin. Mr. Chairman, thank you.
    Sometimes when you are in the middle of the trees, you lose 
sight of the forest. So I want to make sure we remark upon what 
a great and historic day this is, that we are taking up the 
Equality Act. And I believe we have got a majority in the House 
of Representatives ready to pass it, and I think there is a 
majority on this committee ready to bring it to the floor.
    I want to salute my colleague David Cicilline for his 
really passionate advocacy and stewardship of this legislation. 
Your name will go down in history, Mr. Cicilline, with other 
great members of the Judiciary Committee in our past, like 
Thaddeus Stevens and Peter Rodino and other great Members of 
Congress like Everett Dirksen and Hubert Humphrey and John 
Lindsay--Republicans, Democrats, both--who stood up for equal 
rights against always a barrage of increasingly absurd and 
desperate arguments mounted by the opposition.
    The second thing I want to say is I would be glad at the 
end of my remarks to grant my colleague from California any 
time if he can find a case of a man impersonating a woman who 
received any kind of small business advantage or credit. And if 
there is one, I would love to know about it, either a man who 
impersonated and was prosecuted for it or a transgender person 
who was proven to have engaged in a fraud on the Government. I 
would be happy to yield for that purpose.
    Now what I want to talk about----
    Mr.  McClintock. Is the gentleman serious about yielding?
    Mr. Raskin. If you can find an actual case when I get to 
the end, I have got something important----
    Mr. McClintock. Well, that is----
    Mr. Raskin. Okay. I am reclaiming my time now. You are 
going to have to stew on that for a second. [Laughter.]
    Mr. Raskin. Okay. The H.R. 5 is going to help improve 
outcomes for more than 437,000 children and young people in the 
child welfare system. Over 120,000 children waiting to be 
adopted.
    Now we know that the opponents of marriage equality were 
greatly disappointed by the Supreme Court's historic 
pronouncement in the Obergefell decision, which wiped away 
their arguments, of course, that if you allow gay people to get 
married, it would destroy and erode the institution of 
marriage. Tell that to two of my nieces and my younger sister, 
all of whom got married in straight marriages since Obergefell 
took place.
    Obviously, the expansion of marriage to include all of our 
citizens didn't undermine marriage at all. But now they have 
trained their guns on a different site. They are saying, well, 
these married couples should not be allowed to adopt children. 
Currently, 10 States, including Virginia across the river, 
allow discrimination against same-sex couples who seek to 
foster and adopt children. And two more legislatures today have 
bills pending before them to accomplish that same objective.
    This is a profoundly troubling offense to the equality norm 
and to our Nation's commitment to children and to our young 
people. These States are placing the ideological commitments of 
some grown-ups over the practical welfare and happiness of tens 
and hundreds of thousands of children and young people. Think 
about that for a second.
    They are saying that they would prefer to have kids either 
not get adopted or placed in a foster home at all than to be 
with a lawfully married couple that they disapprove of. That is 
a remarkable thing, and we are going to take care of that with 
the Equality Act. This is a magical moment for our country. We 
are expanding equality.
    This is the whole history and trajectory of our 
Constitution, of our laws. We started as a slave republic of 
white male property owners over the age of 21, and through 
social struggle and social connection and the moral discovery 
of the people that all human beings really are equal, certainly 
in the eyes of the Constitution.
    It is not in the eyes of God, according to some. It is not 
in the eyes of other citizens, according to some. In the eyes 
of the Constitution, all of us have to be equal. And so we have 
expanded ourselves to do that.
    So we are going to--we have seen in some of these States 
the adoption levels go down because you are removing lots and 
lots of very qualified families that want to adopt. In fact, 
one study showed that 70 percent of same-sex couples want to 
form families, and 40 percent want to do it through foster and 
adoption.
    Now why, for the life of us, would we remove them from the 
roster of parents who are ready to adopt? Why would we do that? 
Unless you have bigoted and prejudiced ideas about the ability 
of gay people to parent and to form families. By the way, those 
are bigotries and biases that are contradicted every day by 
LGBT parents across the country.
    So let us see. I have got an embarrassment of riches here. 
But let me ask you, Ms. Chandy, about this. Is this not a 
problem today that in many States or some States, it is the 
minority of States. But in some States that the LGBT community 
is being locked out of foster care and adoption?
    Chairman Nadler. The gentleman's time has expired. The 
witness may answer the question.
    Ms. Chandy. Yes, I mean, of course. Turning away qualified 
LGBTQ foster and adoptive parents, you know, limits the pool 
for children, and I also want to make the point that this 
really is harmful for the children because one in five foster 
youth identify as LGBTQ. And this takes away the chance that 
that might be put with an affirming family.
    And there are over 400,000 foster kids in America, and we 
need to have all of the families who are willing to be in the 
pool to take care of them. And so I would just heartily agree 
with you that we cannot exclude LGBTQ potential parents from 
this. And as adoptive parent myself, obviously, I take this 
very personally, to think that I would go to an agency, and 
they would turn me away.
    Chairman Nadler. The gentleman's time has expired. The 
gentlelady from Florida, Mrs. Demings?
    Mrs. Demings. Thank you so much, Mr. Chairman.
    And thank you to all of our witnesses for your testimony 
today.
    You know, just saying that you support equal rights or 
women's rights, I think that is more interesting what is going 
on over there.
    Mr. Raskin. He has no case. I would be very happy to----
    Mrs. Demings. Just saying that you--okay. Just saying that 
you support equal rights or women's rights or civil rights 
isn't enough because the American people are always watching 
what you do, not just listening what you say, but watching what 
you do. As great as we are as a nation, I am just amazed that 
we just simply cannot yet seem to get past racial 
discrimination, sexual discrimination, or discrimination of any 
kind.
    For some reason, America just cannot seem to get past 
tearing other people down who are different in some way for us. 
You all know the history of our country. Our past is so ugly in 
this area I would think that we would all do everything within 
our power to make it right.
    But instead, we sit here today, at least my colleagues on 
the other side of the aisle, and look for a technicality to 
continue to justify discrimination in what I do believe is the 
greatest country in the world. We have heard about 
discrimination in housing. We have heard about discrimination 
in employment. We have heard about discrimination on so many 
different areas that are necessary to living a quality life in 
this country.
    But yet we are overruling all of that based on this belief 
that there may somehow be discrimination in the area of sports. 
Now I played sports, and I do not believe that it takes 
precedence over my ability to love whomever I want to, to live 
wherever I want to live, to work wherever my qualities as an 
individual take me, or to be my authentic self.
    All of you have added very important testimony to this 
conversation, but Reverend Wiley, I want to go back to you, and 
I know you so eloquently in your opening statement talked about 
why this matters to you. But just for all of our sake as we 
wrestle with discrimination still yet today, you grew up in the 
Jim Crow era in the South, and I want you to tell me why does 
that motivate you so much as it pertains to this issue today, 
and what would you say to those who argue that it is 
inappropriate to equate racial discrimination with 
discrimination on the basis of sexual orientation or gender 
identity?
    Rev. Wiley. First of all, I would say that injustice 
anywhere, as M.L. King said, is a threat to justice everywhere. 
And again, I have just developed a sensitivity to the fact that 
having gone through what I went through as in the segregated 
South has sensitized me to the injustice of discrimination 
toward anybody.
    And one could say that no two discriminations are the same. 
I mean, racial is not the same, exact kind of a discrimination 
as LGBTQ discrimination or gender discrimination, but it is 
still discrimination. So that if any of us have--and so in 
moving from Winston to Washington, even though Washington 
itself has a sordid history of discrimination as well in the 
past, and we are seeing some things even in the present that 
remind us of that.
    But again, I think that if we believe in a society where 
all people are created equal and everyone is entitled to life, 
liberty, and the pursuit of happiness, either we are telling a 
lie when we say that, or we really mean it. And I think that if 
we really mean it, then we are open to whatever needs to be 
done to make it a reality.
    Mrs. Demings. Thank you. And Mr. Chairman, I yield back.
    Chairman Nadler. I thank the gentlelady.
    The gentlelady from Pennsylvania, Ms. Scanlon.
    Ms. Scanlon. Thank you.
    You know, this is a personal issue for me. We said 
yesterday when we were talking with some of these folks, it has 
been personal since my baby sister came out to me 40 years ago. 
And for many people in this country, that is when the fight 
hits home. It gets personal when someone who you love says, 
``This is who I am,'' and you know and value that person, and 
you will do whatever you can to make sure that your loved one 
can live their life to the fullest, free from hate and 
discrimination.
    I do want to recognize and remember Shantee Tucker, a 
transgender woman of color from Philadelphia who lived at the 
intersection of racial and sex and gender identity 
discrimination. Last fall, she was murdered, and that is 
something we hear time and time again, that when all of these 
discriminations coalesce, that is where there is even more 
serious danger.
    I am sad to say that my home commonwealth, Pennsylvania, is 
one of the 30 States that has not adopted anti-discrimination 
provisions in this arena. We don't have legal protections on 
the books for LGBTQ people. The idea that my sister or anyone 
else could drive across State lines and either gain or lose 
protections is both heartbreaking and, I think, profoundly un-
American. So that is why we need this bill.
    I was really interested in Ms. Silas' testimony about IBM 
and the other major corporations that are really taking the 
lead in this arena and making the business case for why this 
law is important.
    I did want to ask a question to Ms. Chandy as we talk about 
the patchwork of laws across this country. In Pennsylvania, 
last year the State's Human Rights Commission announced that it 
would accept complaints dealing with sexual orientation or 
gender identity, discrimination, even though no Federal or 
Pennsylvania State law explicitly addresses those issues. So 
why is it important that we have a Federal law to address this 
issue?
    Ms. Chandy. Sure. As you have noted, there are States and 
localities for many, many years that have had protections based 
on sexual orientation and gender identity. And while--including 
D. C.
    And while the individuals who live in that jurisdiction are 
able then to bring explicit complaints, as you said, if you go 
across the State lines, then you don't. And so I think we want 
to have a country where all of us have these protections as 
LGBTQ individuals.
    As we also mentioned, some of the court cases are evolving 
in this way to say that the Federal protections of sex 
discrimination also provide protections if you are 
discriminated against based on sexual orientation or gender 
identity. Again, that is dependent on circuits, meaning sort of 
regions.
    And so these rights cannot be dependent on States, 
localities, or Federal regions. They need to be for all of us.
    Ms. Scanlon. Is it fair to say that if the character of the 
Federal judiciary were to change, for example, if a whole host 
of more conservative judges were appointed, that that could 
imperil some of these advancements in the Federal courts?
    Ms. Chandy. Yes, that is correct because these--until we 
have a statute, a Federal statute that gives clear and explicit 
protections, some of these decisions are dependent on the 
discretion of Federal district judges and circuit judges. So, 
yes, the makeup of the judiciary can impact on these 
interpretations until we have a Federal statute that protects 
all of us.
    Ms. Scanlon. Okay. I have spent the better part of the last 
30 years working on issues involving public education, and I am 
really proud now to serve on the Transgender Equality Task 
Force with Congressman Kennedy. So earlier this year, we sat 
down and had a couple of sessions with parents and children in 
schools talking about their experiences as transgender or 
gender nonconforming youth and their struggles and the bullying 
and the bureaucratic roadblocks they face.
    Can I ask you about how the Equality Act would affect those 
students?
    Ms. Chandy. Sure. And. with permission, I would love to 
bring in Carter Brown, if you are willing? Given that we have 
someone who might be able to speak to that more personally, I 
will just say that this law would provide additional 
protections. But really, I would defer, if you don't mind?
    Mr. Brown. Sure, thank you.
    In my experience when working directly with the transgender 
community, we have heard lots of stories here today about the 
damage that the option to transition does to children. I have 
heard--I can combat those stories double with positive stories 
of children, personal testimonies of children and their parents 
stating the opportunity for their children to be able to 
transition and live authentically with support has given them 
so much fulfillment in their life and enriched their quality of 
life.
    I can say for myself personally if I had the opportunity to 
transition at a much younger age, I would feel that I could 
have achieved much more, having not been ostracize in school 
settings or a negative effect on my social life overall and my 
ability to access opportunities in education and employment and 
things that every other American is afforded.
    I do believe that a person's gender identity is a very 
personal thing, and it is not something that can be defined by 
anyone else, and it is definitely not something that anyone 
wants to perpetrate for the purpose of hurting someone else.
    Chairman Nadler. The gentlelady's time has expired.
    Ms. Scanlon. Thank you.
    Chairman Nadler. The gentleman from Colorado, Mr. Neguse?
    Mr. Neguse. Thank you, Mr. Chairman, and thank you to the 
witnesses gathered here today, for your testimony.
    Fairness and equality, in my view, are core American 
values. Our Nation's civil rights laws protect people on the 
basis of race, national origin, in most cases, sex, disability, 
and religion. And yet when it comes to sexual orientation and 
gender identity, as we heard today, more than half of our 
States still lack explicit laws to protect people from being 
fired, refused housing, or denied credit simply because of who 
they are.
    We cannot grow complacent in the quest for equal rights for 
all, and that is why I am very glad to be a cosponsor of the 
Equality Act and proud that the chairman and this committee are 
taking up this issue.
    Prior to serving in Congress, I had the distinct honor of 
running our State's regulatory department in the great State of 
Colorado, which included the Civil Rights Commission, the 
Masterpiece Bakery case that the professor mentioned earlier 
happened to be a case that originated in that agency. I am also 
proud that my home State of Colorado took an important step 
towards equality over a decade ago by making it illegal to 
discriminate on the basis of sexual orientation and gender 
identity and employment, housing, public accommodations, 
education in credit. And it is long past time that we emulate 
those important protections at the Federal level. It is time 
that we get this done.
    And so, again, I am very grateful to Representative 
Cicilline and to the many cosponsors of the Equality Act.
    Mr. Brown, I want to give you a chance to talk a little 
bit, and if you will indulge me, I first want to say thank you 
for sharing your testimony and for sharing your story, which I 
think is just incredibly important. Your honesty and the 
strength that you have shown by being here this morning--I 
guess it is afternoon now as the hearing goes on--and 
ultimately, your approach I just think is incredibly admirable. 
And so I thank you for that.
    Mr. Brown. Thank you, sir.
    Mr. Neguse. And I am, of course, sorry, as I know my 
colleagues in the committee are, to hear about the 
discrimination that you faced and the toll that it took on your 
family. Just a couple of weeks ago when I was back home in 
Colorado, I had a chance to meet with a group of LGBTQ 
individuals and allies at Out Boulder County.
    And Out Boulder is the perfect example of a grassroots, 
locally driven organization that has made strides in our 
community because of its ground-up approach to building support 
for the community. But the first thing they brought up when I 
met with them with respect to the concerns that they had in the 
community and sort of nation at large, the issue they talked 
about the most was the need to have proactive support for the 
transgender community.
    They have obviously felt, you know, been under attack quite 
constantly by the Trump administration, but we also want to be 
fighting for the transgender community even when they aren't 
under attack in the news. And so Mr. Brown, the question is 
outside of the Equality Act, which I fully support and look 
forward to voting for, what other steps would you recommend 
this committee or the Congress in general take to better 
support the transgender community?
    Mr. Brown. Well, my understanding of the law is that is not 
to persuade personal beliefs, but to provide personal 
protections for all of its citizens, period. So I feel that to 
have more support for the transgender community, to be made 
into law, simply gives all Americans equal citizenship.
    For me personally, I feel that if the Equality Act is 
passed, that allows me--it not only protects my identity as a 
black person, and not only it protects my identity or--I am 
sorry, my faith in God, but it also protects my gender 
identity, which is innately all of me and my characteristics. 
None of those characteristics are less than or more than. They 
all make me.
    And as a hard-working American citizen and as a taxpayer, I 
deserve the same rights as my neighbors, and that's simply put. 
So I feel that not only familial support, where we are talking 
about suicide and suicide ideation in the trench or in the 
community, that is generally due to lack of support, due to 
lack of access to healthcare, due to lack of being integrated 
into society as anyone else creates depression and mental 
health problems for many people.
    And I would equate that to, you know, as the Reverend 
Doctor stated, with the discrimination against black people 
where we are talking about separating the black people from 
schools or separating them in sports because it was believed 
that they could jump higher or stronger, or separating them, 
you know, or even gay people, separating them in school lockers 
because we were afraid that the gay boys would attack the 
straight boys, et cetera.
    This is the same thing of just hate mongering and inflaming 
fear for isolated incidences where a crime was committed by 
someone who happened to be transgender, and then flipping that 
prejudice onto a whole community of people does nothing but 
continue to divide us as Americans, as opposed to actually 
bring us all together as the United States, as we say we are.
    Mr. Neguse. Thank you, Mr. Brown. And I see my time has 
expired.
    If the chairman would indulge me in 4 seconds to just 
simply say thank you to Ms. Silas in particular and to IBM's 
voice. I happen to represent Boulder, Colorado, where IBM is 
headquartered, and so I just want to--I am grateful for your 
support of the Equality Act and leading in the business 
community on this front.
    Chairman Nadler. I thank the gentleman. The gentleman from 
Arizona, Mr. Stanton.
    Mr. Stanton. Thank you very much, Chairman Nadler.
    And I want to thank the outstanding witnesses here today 
for your testimony. I also want to thank my friend, Congressman 
Cicilline, for your long-term leadership in drafting this 
Equality Act and shepherding it through this process. And with 
the help of the new Members of Congress this year, we are going 
to get it passed through Congress. So thank you for your 
leadership, Congressman.
    Cities across the country recognize the importance of 
ensuring all people have the ability to live and work without 
fear of discrimination because of who they are. We certainly 
understood that in Phoenix, and during my time as mayor, we 
sent the message that everyone is welcome, regardless of sexual 
orientation or gender identity.
    To me, it is simple. Our communities are stronger when they 
are inclusive and welcoming, and what is more, our economy is 
stronger.
    So today I want to underscore the Equality Act's potential 
economic impact. In three specific cases in Phoenix, we saw 
that taking action to prevent discrimination had a positive 
economic impact. In 2013, we passed a citywide 
nondiscrimination ordinance to prohibit discrimination on the 
basis of gender, sexual orientation, and disability in 
employment, housing, and public accommodations.
    As a result, Phoenix earned national recognition as a city 
promoting equality. Socially conscious companies look to our 
region as a place that aligns with their vision for 
inclusivity, and they are expanding to create jobs and do 
business in our city. In 2014, we stood up against a proposed 
State law that would have allowed businesses to discriminate 
against customers on the basis of religious belief, the so-
called bathroom bill.
    We joined businesses across Arizona and the country to 
demand that the governor reject the bill, and major 
corporations, including Apple, AT&T, American Airlines spoke 
out, too. Even the National Football League considered moving 
the 2015 Superbowl if the bill were to become law, a clear 
example that pushing discriminatory policies puts us at 
economic risk. Under pressure, the governor did ultimately veto 
that bill.
    In 2016, Phoenix joined other U.S. cities in offering 
transgender-inclusive healthcare benefits to city employees and 
their families. This sent a strong message to our transgender 
public servants: you matter and we value you. Providing those 
benefits was vital to the wellbeing of our city employees and 
continues to make the City of Phoenix a more sought-after 
employer. We learned in Arizona that inaction has consequences. 
Allowing discrimination to take place or not being proactive 
about outlawing discrimination that pushed out the talented 
people our cities need to thrive economically.
    More proof. A study from the William Institute found that 
``When LGBTQ people are targets of violence, denied equal 
access to education, stigmatized in communities, and 
discouraged from pursuing jobs that maximize their skills, 
their contributions to the whole economy are diminished, 
holding back economic advancement for the national economy.'' 
The bottom line is that LGBTQ individuals want to live and work 
in places that embrace them. States and cities have been doing 
the heavy lifting when it comes to preventing discrimination, 
and it is time for this Congress to act. The Equality Act is 
the overarching legislation that our country needs right now.
    Here is my question. It is for Ms. Silas. You mentioned in 
your testimony that IBM is a place to create a supportive and 
inclusive environment for all of your employees, and I want you 
to speak a little more, maybe expand upon that a little bit. 
Can you speak to the importance of having inclusive policies in 
terms of recruiting and retaining talent? I believe corporate 
America has been way ahead of the political side in terms of 
promoting inclusivity. Please.
    Ms. Silas. Yes, thank you for that question. So, you know, 
the reality that we sit in today is there are half a million 
technical jobs open right now, right? And certainly when we 
think about IBM and our talent needs and venturing into spaces, 
such as blockchain and cybersecurity and quantum computing, all 
of which are incredibly important spaces for innovation and 
advancement in the technical field, we are not in a position 
where we aspire to handpick people based on anything other than 
skills. I have no interest in discriminating against people 
based on personal attributes. It doesn't make good business 
sense.
    Beyond that, I am proud to work for a company where we are 
grounded in the belief that our actions need to absolutely 
result in business growth, and it is why we are focused on 
skills. But we also have a 100-year history focused on societal 
impact and how do we use our role and our impact on society to 
drive fairness and equality. That is also good business.
    Mr. Stanton. All right. Thank you. The Equality Act is good 
for the American economy, good for business. Mr. Chairman, I 
ask unanimous consent to insert into the record the Williams 
Institute study that I referenced called ``The Relationship 
Between LGBTQ Inclusion and Economic Development: An Analysis 
of Emerging Economies.''
    Chairman Nadler. Without objection, the document will be 
admitted.
    Mr. Stanton. Thank you.
    [The information follows:]
          

                  MR. STANTON FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Nadler. The gentleman's time has expired. The 
gentlelady from Pennsylvania, Ms. Dean.
    Ms. Dean. Thank you, Mr. Chairman, and I thank all of you 
for coming and talking with us today on this important 
conversation about how we create a more perfect union. If you 
notice, some of us are leaving this room. We are going in and 
out to other hearings. And I happen to be going to a hearing 
across the hall, not very far away, and it is not far away in 
terms of what we are talking about. It is the Financial 
Services hearing on fair housing.
    And as I stepped in there to have my opportunity to listen 
in and to ask some questions, Ms. Johnson, who is an expert on 
LGBTQ issues, said, ``We must name sexual orientation as a 
protected class.'' It is interesting how these two 
conversations are meshing. And so in the frenzy of running 
between and in the sausage-making that you are all watching, I 
just want to commend the chairman for hosting this committee 
because in the search of a more perfect union, we have these 
messy conversations, these uncomfortable conversations, and I 
thank the chairman. I thank Mr. Cicilline for his extraordinary 
leadership on this legislation.
    Some things that I wanted to examine, and, Ms. Silas, in 
terms of IBM, we sometimes talk about we don't want to 
discriminate because it is not the right thing to do. But 
economically, it is the right thing to do to make your 
workforce as diverse as possible because our diversity actually 
makes us stronger. Our diversity comes up with creative 
solutions. Is that IBM's experience?
    Ms. Silas. It certainly is. I mean, it is not abnormal when 
we talk about the benefits of how our teams work and embedding 
diversity, that we strongly believe that diversity helps us do 
things like, you know, mitigate group think, or identify errors 
more efficiently, or innovate more effectively. And that is 
core to how we work, and ultimately it is how we thrive as a 
business, so it is absolutely normal and core to how we work.
    Ms. Dean. So it is not only the right thing to do, it is 
the economically smart thing to do to come up with more 
creative solutions. And, Reverend Doctor, I really appreciate 
your experience and your testimony and your years of pastoring 
to so many. Before you even had your very personal connection, 
you were already pastoring on this subject because you 
understood it as a subject about our common humanity, and you 
understood it as a core subject of love. How we love one 
another is actually what should guide us.
    So you might imagine that I am extraordinarily puzzled by 
the conversation that has been going on by some of the 
testimony here, but also by some of my colleagues on the other 
side of the aisle that throw up what I think are rather phantom 
fear-mongering examples of fear of invasions of bathrooms, 
invasions of shelters, invasions of sport. I don't understand 
that in the balance, even if any of those, anecdotally, things 
were true, on whole, on the measure, in the balance of how we 
move forward in this country, are we to be held back those 
phantom anecdotes, or are we to look for a more perfect union 
and to stop discriminating?
    And so I wanted to give whomever the opportunity, and I 
really commend Mr. Brown, Ms. Contreras, and Professor for your 
compelling personal testimony. And as I am one of the last to 
question you, is there anything you realize in this 
conversation we really haven't heard about in personal 
discrimination, because I was a township commissioner a long 
time ago--not so long ago--in Abingdon Township, Pennsylvania 
in 2012 when we passed this as an ordinance, this bill as an 
ordinance. And people kept saying to me, come on, is there 
really discrimination in housing? Is there really 
discrimination in accommodation? Well, your testimony shows 
beyond measure the extraordinary heartbreaking discrimination. 
What else have we missed? What else should people know so they 
understand the importance of this law?
    Ms. Beck. We should understand that sexual orientation is 
not the same thing as gender identity. These two things are 
very different, and, in fact, one invalidates the other. Gender 
identity language obfuscates sex. One of my colleagues in the 
Baltimore City LGBTQ Commission, before I was kicked off for 
using male pronouns to talk about a male rapist, one of my 
colleagues said that sex was fake. Sex was a thing of the past, 
that science had progressed so far that we didn't even need to 
worry about it. And I asked him how could we be gay if sex is 
fake. Gender identity obfuscates sex, so we can't legislate one 
thing while it invalidates the other.
    Ms. Dean. I thank you, Ms. Beck. I thank you, Ms. Beck. And 
I understand you do not understand this as a civil right, so I 
actually was asking for some other input. Thank you.
    Mr. Yoshino. Great. So just a couple of things that I think 
might be useful, Representative. One is thinking about the 
assault issue that you raised and that one of your colleagues 
on the other side of the aisle raised with the Karen White 
case. It is interesting that we need to travel abroad to the 
U.K. to find that example because we have seen no examples of 
that, to my knowledge, on this side of the pond. That was a 
case of really unfortunate assault, but of both men and of 
women. So the only thing that could have prevented that assault 
are the things that we have in our criminal law and in our tort 
law that abolish and punish assault and criminal behavior as 
such rather than sex segregation per se.
    And, in fact, that individual, it was interesting that no 
one thought to mention, is serving a life sentence in jail, 
right, so that we do have redress within our criminal law for 
egregious actions of that kind without having to resort to 
excluding trans individuals from sex-segregated spaces. And, in 
fact, one of the painful ironies of this entire hearing is that 
we hear over and over again trans individuals being cast as the 
perpetrators of assault and harassment, whereas statistically 
there is no evidence that trans individuals are more likely to 
perpetrate assault or harassment. And, in fact, exactly the 
opposite is true. Trans individuals are much more likely to be 
the victims of assault and harassment, and that is exactly what 
this Equality Act would cure.
    The only other thing that I would like to mention has to do 
with the freedom of religion issues that have been raised. I 
was a bit puzzled to hear one of the representatives say that, 
you know, the First Amendment is one of our first freedoms, 
and, therefore, should be enshrined, you know, given that this 
act under the supremacy clause does nothing to disturb and 
could not disturb the free exercise clause jurisprudence that 
the Court has articulated. So that is a constitutional 
amendment. There is nothing that ordinary legislation can do to 
alter that or the protections in place under the free exercise 
clause.
    Chairman Nadler. The time of the gentlelady has expired. 
The gentlelady from Washington, Ms. Jayapal.
    Ms. Jayapal. Thank you, Mr. Chairman. And I just want to 
say thank you so much to so many of you that have given 
beautiful, beautiful testimony today. I have my pack of Kleenex 
here because I found it deeply moving. And I want to remind 
anybody that might be watching what we are talking about today. 
The Equality Act is a landmark civil rights bill to make clear 
that discrimination against LGBTQIA people has no place in our 
society. It rectifies an unacceptable situation, and sets forth 
comprehensive protections against discrimination on the basis 
of sexual orientation or gender identity.
    As I listened to some of you today, I was struck by this 
push to presume that these provisions would somehow be 
manipulated or used by people in ways that would hurt existing 
sex protections. And I was struck so much, Reverend Wiley, by 
your beautiful testimony, and it occurred to me that we are 
talking about fear versus love. We are talking about fear 
versus freedom. And I didn't intend to say this today, but--
excuse me.
    My beautiful now 22-year-old child told me last year that 
they were gender nonconforming. And over the last year, I have 
come to understand from a deeply personal mother's 
perspective--I have always been a civil rights activist. I have 
always fought for my constituents and my communities to have 
equal rights. But from a mother's perspective, I came to 
understand what their newfound freedom--it is the only way I 
can describe what has happened to my beautiful child--what 
their newfound freedom to wear a dress, to rid themselves of 
some conformist stereotype of who they are, to be able to 
express who they are at their real core.
    And since this deeply impactful moment last year, my child, 
who has always done well in school, but has carried what a 
mother can only describe as a heavy burden of conflict in their 
own being that I could not fully identify or help to express. 
Since this deeply impactful moment last year, my child's 
embracing of their nonconforming gender identity and all that 
it has allowed, all that it allows in terms of their 
creativity, their brilliance, their self-expression, the only 
thought I wake up with every day is my child is free. My child 
is free to be who they are. And in that freedom comes a 
responsibility for us as legislators to protect that freedom to 
be who they are and to legislate, as Dr. Wiley so beautifully 
said, to legislate our behavior towards all people in our 
society.
    So let me go to some questions. Washington State has had 
protections for transgender people since 2006, and we have 
never had issues such as those that are being raised today as 
fears. So, Ms. Beck, I know you have described yourself as a 
lesbian radical feminist. You last appeared before this 
committee during the hearing for the reauthorization for 
Violence Against Women Act, which incorporates gender identity 
in its non-discrimination provision, and you criticized these 
protections saying that ``Predatory men will do anything to 
gain access to victims.'' And you went on to say that, 
``Acknowledging biological sex is not inhumane. It is actually 
inhumane to force women to share intimate spaces with male 
people who call themselves women.'' Is that correct?
    Ms. Beck. Correct.
    Ms. Jayapal. Thank you. Ms. Chandy, as legal director at 
the National Women's Law Center, you are an expert not only on 
LGBTQ rights, but also on gender and women's issues. In your 
expert opinion, is it problematic to have inclusive spaces that 
provide safe spaces for transgender people?
    Ms. Chandy. No. As we have talked about here today, sexual 
assault happens across all kinds of workplaces and schools and 
many, many settings, and does not require some, you know, sex-
segregated spaces for that. There is no evidence that having 
trans-inclusive, sex-segregated spaces would lead to more 
sexual assault. And I can also say on a personal note, I have 
so many South Asian LGBTQ organizations and would love to 
connect with you around that to provide support if that is 
useful for you.
    Ms. Jayapal. And I am a proud Keralite, by the way.
    Ms. Chandy. Oh, wow, so.
    Ms. Jayapal. So happy to have you here.
    Ms. Chandy. You can talk to my parents then.
    Ms. Jayapal. So let me just add my time is expiring, but I 
wanted to ask, Mr. Brown, if you could just share what these 
protections for transgender people in the Equality Act would 
mean for you and your family. Ms. Beck has said that she 
opposes protections for transgender people, and I would just 
like to hear from you from a very personal perspective. What 
would it mean to have us pass the Equality Act with these 
transgender protections?
    Chairman Nadler. The gentlelady's time has expired. The 
witness may answer the question.
    Mr. Brown. From a personal perspective, having the Equality 
Act passed would provide safety for me. We hear a lot about, 
well, we have heard a lot today, about transgender people being 
a threat in the bathroom, in sports, in the workplace, so 
forth. My experience, I need protections. I do not feel safe in 
the workplace. I do not feel safe in the bathroom if someone 
knows that I am transgender. I know a lot of transgender men 
that have been harassed and attacked in the bathroom because 
they were transgender. I need protections for me as a trans 
person.
    My identity is not a threat to anyone else. As it stands, 
it is a threat to me and my ability to provide for my family, 
to work hard. And in the intersections of my gender identity 
and my race and my class, it is not a level playing field as an 
American, as a person who has worked hard to complete school, 
to buy a home, to pay taxes, and all the things that America 
promised me as a freedom. And my right, an inalienable right, 
to pursue my road to happiness is now being threatened because 
I have no protections.
    Ms. Jayapal. Thank you, Mr. Brown. And, Mr. Chairman, thank 
you. I just want to say that this is such an important bill. I 
thank Mr. Cicilline and you, Mr. Chairman, for having this 
critical discussion on how we move forward as a country.
    Chairman Nadler. I thank the gentlelady. The gentlelady 
from Florida, Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Mr. Chairman, and I truly 
applaud the courage from the members of the panel that are here 
with us today. Thank you for being here. The courage of a 
mother, my colleague, Representative Jayapal, who with her 
words truly touches each and every one of us. And David 
Cicilline, who has been fighting every battle to ensure that we 
finally protect every individual regardless of gender identity 
or whom they love. This is the United States of America. 
Equality is equality.
    And I have to say that every time I come to this committee 
and I sit through hours of hearings, whether it is passing the 
universal background checks bill, the Violence Against Women 
Act, I hear from my colleagues across the aisle things that 
make absolutely no sense. And I just wonder if these comments 
are based on fear or is their masculinity being threatened. Are 
they scared that all of a sudden by passing the Equality Act, 
their favorite sports team is going to lose to some female 
sports team that now has males that are pretending to be women 
so that they can participate in female sports? It makes 
absolutely no sense.
    I can tell you that I am very proud to represent a 
community where our motto is ``One human family,'' and that is 
Key West. We have elected our mayor back in November who is an 
openly gay mayor. We have a police chief who is openly gay. We 
welcome over 450,000 tourists who are members of the LGBTQ 
community. Our rates of violence are lower than any other 
community in Florida. I am proud to represent Key West. We 
should all learn from that community what it means to be a 
member of one human family.
    And since I hear a lot of words from my Republican 
colleagues about, you know, fear, bad actors, I am going to 
talk to them on terms that maybe will grab their attention, and 
that is the economy and money in their pockets and what it 
means to lose businesses or employment opportunities if we 
discriminate against our brothers and sisters from the LGBTQ 
community. I would like to, Mr. Chairman, ask for unanimous 
consent to include in the record the list of companies that are 
endorsing the Equality Act.
    Chairman Nadler. Without objection.
    [The information follows:]
          

              MS. MUCARSEL-POWELL FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Mucarsel-Powell. ADP, American Airlines, Speyer U.S., 
LLP, Boos Allen Hamilton, Choice Hotels International, Cisco 
Systems, Deloitte, LLP, Diageo North America, Ernst & Young, 
Google, Hyatt, IKEA, Intel, Lyft, Marriott. The list goes on 
and on and on. So it is not just a social justice issue. This 
is an economic issue. So maybe that will bring attention to my 
colleagues across the aisle.
    So to that effect, I would like to ask some questions for 
Tia Silas, Ms. Silas. According to the Human Rights Campaign 
2019 Corporate Equality Index, 93 percent of Fortune 500 
companies have non-discrimination policies that include sexual 
orientation, and 85 percent of Fortune 500 companies have non-
discrimination policies that include gender identity. Why are 
businesses proactively adopting explicit LGBTQ non-
discrimination policies?
    Ms. Silas. Thank you for the question. So I stated a little 
bit earlier that it really is around access to skills that 
allow our business to thrive, and the fact that we have, you 
know, at least a half a million, in my space, technical jobs 
open. And so we need to care about skills. I also touched on 
something else I haven't been able to speak on, which is why a 
company would care about protections beyond the four parameters 
of our wall, so thinking about things like housing and credit. 
And for IBM, our particular story is one where we understand 
that if we are only concerned about protections within our four 
walls, then that puts us at a competitive disadvantage in 
recruiting people.
    I often reference, you know, my predecessor, a guy by the 
name of Ted Childs, led during an era where we were really 
progressive around the recruitment of minorities, Hispanic, 
blacks into our Westchester, New York area. It was important 
for our headquarter. We found that while we were fairly 
aggressive working with HBCUs and incredibly successful in 
recruiting people, that when we want to relocate them in the 
Westchester community, that they were unable to access to 
things like housing or credit to get a car.
    And we had to go out into the community--we are one of the 
founders of an organization called WRO--so that we could 
advocate for holistic and 360-degree fairness and equality for 
our employees. So we have learned through our 100 years, right, 
that it is important for us to care about what we can control 
within our four walls, but we rely really on you, right, to 
ensure that there are protections across State lines and beyond 
employment.
    Ms. Mucarsel-Powell. Thank you, Ms. Silas. Thank you, Mr. 
Chairman.
    Chairman Nadler. The time of the gentlelady has expired. 
There are 8-and-a-half minutes left in the vote. We are going 
to try to finish the hearing and ask them to hold the vote 
open, so I am going to be more strict on the 5-minute rule. The 
gentlelady from Texas, Ms. Jackson.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and 
thank you for this hearing. David Cicilline, the journey is 
continuing, but thank you for the passion, and we commit to you 
and all of you that we will not give up the fight.
    Let me indicate that I want to acknowledge and associate 
myself with the personal testimonies of all of you, including 
the members on the dais who spoke eloquently about their 
concerns. You heard the time element, and so, Reverend, just 
give me just a quick two-word, what is imperative, Reverend, of 
having equality be a moral imperative, because you started a 
church on that basis.
    Rev. Wiley. Let me just share a quote from Howard Thurman, 
and it is very simple: ``I have always wanted to know how to be 
me without making it difficult for you to be you.''
    Ms. Jackson Lee. I think it is stunningly true. Jami 
Contreras, all of us have looked at that baby and that bouncing 
baby with such joy, and I just want to congratulate you. And I 
know that this child will be wonderfully beloved and as well as 
accepting. Tell me how deep the pain was rejected by a 
physician who takes the Hippocratic oath.
    Ms. Contreras. It is a pain that is indescribable, and it 
sticks with me to this day. And I think that is why I have to 
keep sharing my story to make sure it doesn't happen to anybody 
else because it was horrifying. And this question that really 
keeps me up at night, and me any wife, that just haunts us is, 
what if that had been an emergency? What if we were in an 
emergency room and that on-call doctor didn't want to see us? 
How long until we get another surgeon or an EMT showing up at 
our house? So the Equality Act can give us finally a sense of 
peace of mind to just provide for our children and keep them 
safe like any other parent wants to do.
    Ms. Jackson Lee. What a powerful statement. Mr. Brown, you 
hail from the State of Texas. We call it great, and that means 
it should be great for you. And I can't imagine the pain. You 
wear the color of black skin who have seen such segregation and 
devastation and now in your life. So would you be kind enough 
just to say again the piercing impact that you were fearful of 
not being able to take care of your family?
    Mr. Brown. Yes, absolutely. And as I stated, when I was 
outed as a transgender man at work, my known transgender 
identity, I did not harass or discriminate against anyone. I 
was harassed and discriminated against. When I went to the 
bathroom, I didn't harass or try to make anyone feel 
uncomfortable. However, I was harassed and made to feel 
uncomfortable because of my transgender identity. So, again, 
the Equality Act is important because it provides safety for 
everyone, not excluding transgender people.
    And also being fired from my job so abruptly because of my 
identity, again, left me in a very vulnerable place in a very 
perplexed mind state and wondering will I be able to secure 
employment again because I am still going to be me. And I 
didn't feel that I should be reprimanded for living 
authentically in my personal life.
    Ms. Jackson Lee. Thank you. I have dealt with through a 
young man that I have come to love and have tried to help. My 
good friends in the audience remember when we were dealing with 
hate crimes and David Richardson was a young man in my 
constituency. I visited him at home, and so this is his story 
very briefly. As horrific and painful as the past year had been 
for hate crime survivor David Richardson, his future seemed 
brighter: a chance to attend college for free, to devote his 
life to public service, and leave behind a troubled past. The 
past 15 months of Richardson's life was focused on recovering 
physically and emotionally from a brutal attack in which he was 
beaten unconscious and sodomized in the backyard with a plastic 
pole by a man shouting ``white power.''
    Sometimes these things overlap. David Richardson was a 
person who testified during our hate crimes hearing many years 
ago, but ultimately David Richardson leaped to his death in the 
Gulf of Mexico from the upper deck of a Carnival cruise ship. 
These are the stories that are unheard, and this simple 
legislation, H.R. 5, that is congruent with our civil rights 
laws and our hate crime laws is long overdue. And I hope, Mr. 
Chairman, that we will be able to pass that expeditiously.
    I ask unanimous consent to submit these into the record.
    Chairman Nadler. Without objection.
    [The information follows:]
          

                MS. JACKSON LEE FOR THE OFFICIAL RECORD

=======================================================================
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Jackson Lee. LGBT----
    Chairman Nadler. Without objection, they are admitted.
    Ms. Jackson Lee [continuing]. And others whose names they 
want me to call, but I will have them, and UCLA. And I hope 
that the tone of this meeting will be that we will never, never 
forget. With that, I yield back within the time. Thank you.
    Chairman Nadler. I thank the gentlelady for yielding back. 
Ms. Garcia of Texas.
    Ms. Garcia. Thank you, Mr. Chairman, and I am going to just 
ask a couple of questions and then yield about 1 minute of my 
time to my colleague, Mr. Cicilline, who will have the final 
words on this bill. My questions will be directed to you, 
Professor. And I actually have a lot of other questions, but we 
are in a hurry to get to our votes.
    This whole issue of the deeply-held religious beliefs and 
the way, in my view, some folks appear to be using it to hide 
behind discrimination. I know that one of your panel members 
talked about how there was no way of knowing who is lying when 
they say they are transgender. I would submit to you that we 
never know any way who is lying that they really have a deeply-
held religious belief, and that, therefore, they are going to 
do X. And how deep is deep and how held is that belief? So can 
you just tell us in like a minute or two what your analysis is 
of what that really means and where that whole theory is 
evolving and where it may take us?
    Mr. Yoshino. Absolutely, Representative Garcia. The exact 
same thought was going through my head as I heard about this 
faking it notion of thinking we wouldn't abolish protections 
for religious minorities simply because it is very easy for you 
or me to say I have a particular religious belief, so I should 
be able to avail myself of that religious exemption. We don't 
do that even though the courts have been very loath to inquire 
into the sincerity or the coherence of somebody's religious 
beliefs, as well they should.
    So if we don't worry about it in that context, if we are 
not saying let's repeal, you know, religion as a Title 7 
category, then why should we have any pause about people faking 
it in this context? The fact that some people may 
opportunistically use it is no reason to deny protection for 
the people who really need it. So I would say that much.
    The only other thing I would add here is that the reason 
that we are quite leery about putting too many religious 
exemptions into this act is the sad history of the use of 
religion, sometimes sincerely, sometimes opportunistically, in 
order to undermine the edifice of civil rights. After the 
passage of the Civil Rights Act of 1964, there was a 
restaurateur, a barbecue owner, who said that he refused to 
serve African-Americans on the basis of his deeply-held 
religious beliefs. The Supreme Court said that that was 
patently frivolous, right, but he was not alone. There are 
others who said my religious beliefs compel me to not serve 
across racial lines. So what we are seeing today is individuals 
who are saying our businesses are otherwise open to the public, 
saying that on the basis of my religious beliefs, I will not 
actually serve you even though I am otherwise open to the 
public.
    And to answer the question that was posed to Ms. Contreras 
about whether or not the physician on deeply-held religious 
grounds should have to serve a Nazi patient if they were 
Jewish, you know, I would respond the same way, that I heard 
Mr. Cicilline respond before he was cut off, which is to say 
Nazis are not a protected class. What we are trying to do here 
is make sure that transgender individuals and individuals who 
are gay, lesbian, or bisexual, are that protected class, that 
they do not have to suffer the searing indignity that Ms. 
Contreras went through because for her to have to go another 
doctor is the same as for that black patron who was refused 
from Piggie Park to have to go another restaurant. It doesn't 
matter that there is another barbecue down the block. The 
memory of being denied that service simply on the basis of your 
race, or on the basis of your sexual orientation, on the basis 
of your gender identity lives with you for the rest of your 
life.
    Ms. Garcia. Well, thank you for that because it has 
troubled me because I come from Texas, and we fought the 
bathroom bill, you know, just tooth and nail. And it seems that 
more bills have crept up, whether it is for, you know, faith-
based organizations denying, you know, any LGBTQ members from 
adopting, from foster care, you know, the pharmacists not 
dispensing medicine. In my view, it is sort of like they are 
getting carried with it. But so thank you for that, and, Mr. 
Chairman, again, I yield the remainder of my time to my 
colleague, who has worked so hard on this bill, Mr. Cicilline.
    Mr. Cicilline. I thank the gentlelady for yielding. Mr. 
Chairman, I would just ask, I know Congresswoman McBath went 
down to vote and had a very eloquent statement that she 
intended to give. I would ask unanimous consent that it be put 
into the record twice to reinforce the power of it.
    Chairman Nadler. It will be put into the record 3 times.
    Mr. Cicilline. And, Mr. Chairman, I have nine articles that 
I would ask be made part of the record.
    Chairman Nadler. Without objection for all nine of them.
    [The information follows:]
          

                 MR. CICILLINE FOR THE OFFICIAL RECORD

=======================================================================
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cicilline. And finally, I just want to end where I 
began my comments in thanking you, Mr. Chairman, for this 
historic hearing for these extraordinary witnesses. And for any 
young, gay, lesbian, bisexual, transgender youth out there who 
is worried or feels discriminated against or fearful, help is 
on the way. Thank you, Mr. Chairman.
    [Applause.]
    Chairman Nadler. I thank the gentleman. I thank the 
gentleman for introducing the bill. This concludes today's 
hearing. Thank you to our distinguished witnesses.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    The hearing is adjourned.
    [Whereupon, at 1:35 p.m., the committee was adjourned.]
          

                                APPENDIX

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
